 SIGAR                                   Special Inspector General for
                                         Afghanistan Reconstruction




                                                     SIGAR Financial Audit 13-4




         USAID’s Technical Support to the Central and
         Provincial Ministry of Public Health Project: Audit of
         Costs Incurred by Management Sciences for Health




                                                               JUNE
                                                               2013

SIGAR Financial Audit 13-4
June 13, 2013


Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Jerry P. Bisson
Acting Mission Director for Afghanistan
U.S. Agency for International Development


This letter transmits the results of our audit of costs incurred by Management Sciences for Health (MSH) under
USAID’s cooperative agreement for the Technical Support to the Central and Provincial Ministry of Public
Health Project. 1 The audit covered the period July 1, 2006, through December 31, 2012, and was performed
by Mayer Hoffman McCann P.C. (MHM). It covered $85,509,377 in expenditures.
The objective of the cooperative agreement was to improve the capacity of the Afghan Ministry of Public Health
to plan, manage, supervise, monitor, and evaluate the scale of public access to basic and hospital health
services. The program particularly focused on Afghan individuals of highest health risk.
The specific objectives of this financial audit were to
    •    render an opinion on the fair presentation of MSH’s Fund Accountability Statement; 2
    •    determine and report on whether MSH has taken corrective action on recommendations from prior
         audits or assessments;
    •    identify and report on significant deficiencies, including any material weaknesses, in MSH’s financial
         internal controls; and
    •    identify and report on instances of material noncompliance with terms of the award and applicable
         laws and regulations.
In contracting with an independent audit firm and drawing from the results of their audit, SIGAR is required by
auditing standards to provide oversight of the audit work performed. Accordingly, SIGAR reviewed MHM’s audit
results and their supporting audit documentation and found them to be in accordance with generally accepted
government auditing sandards.
MHM found that the Fund Accountability Statement presented fairly, in all material respects, revenues received
and costs incurred under the agreement. MHM identified 14 recommendations from prior audits or
assessments for follow-up or corrective action. MSH did not agree with USAID/Afghanistan’s July 2012
Regulatory Compliance Review for vetting and procurement that corrective actions were necessary for 12 of
the findings and stated that it there was no opportunity to remediate the other 2 findings because the related
sub-awards had ended. MHM also reported one significant internal control deficiency and two instances of
noncompliance, which prompted them to question a total of $12,666 in costs. The $12,666 in questioned




1 USAID’s associate cooperative agreement no. 306-A-00-06-00522-00 to improve the capacity of the Afghan Ministry of

Public Health.
2 The Fund Accountability Statement is a special purpose financial statement that includes all revenues received, costs

incurred, and any remaining balance for a given award during a given period.
costs included $6,345 in costs which MHM deemed to be ineligible 3 and $6,321 in costs that were
unsupported. 4 See table 1 below.
Table 1 - Summary of Questioned Costs
               Category                   Questioned Costs Total                Ineligible           Unsupported

 Other direct costs 5                                          $6345               $6,345

 Equipment 6                                                     $44                                             $44

 Salaries and wages 7                                          $6,277                                         $6,277

 Totals                                                    $12,666                 $6,345                     $6,321

Given the results of the audit, SIGAR recommends that the Mission Director of USAID/Afghanistan:

    1. Determine the allowability of and recover, as appropriate, $12,666 in questioned costs ($6,345
       ineligible and $6,321 unsupported) identified in the report.

    2. Advise Management Sciences for Health to address the internal control finding identified in the report.

    3. Advise Management Sciences for Health to address the two compliance findings identified in the
       report.

    4. Resolve the 14 open recommendations to Management Sciences for Health from the July 7, 2012
       USAID/Afghanistan’s Regulatory Compliance Review for vetting and procurement.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendation.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction

Enclosure




3 Ineligible costs are costs that the auditor has determined to be unallowable. These costs are recommended for exclusion

from the Fund Accountability Statement and review by USAID to make a final determination regarding allowability.
4 Unsupported costs are those costs for which adequate or sufficient documentation necessary for the auditor to determine

the propriety of costs was not made available.
5 Questioned “Other Direct Costs” were expenses related to farewell parties, special holiday celebrations, etc.
6 Questioned “Equipment” costs related to 11 computers for which there was no record of disposal.
7 Questioned “Salaries and Wages” are expenses related to missing timesheets and payroll payment vouchers.




                                                           2
        MANAGEMENT SCIENCES FOR HEALTH

           Financial Audit of Costs Incurred under
Associate Cooperative Agreement No. 306-A-00-06-00522-00

  For the Period July 1, 2006 through December 31, 2012
                       MANAGEMENT SCIENCES FOR HEALTH

                           Financial Audit of Costs Incurred under
                Associate Cooperative Agreement No. 306-A-00-06-00522-00

                   For the Period July 1, 2006 through December 31, 2012


                                      Table of Contents


                                                                              Page
Summary:
 Background                                                                     1
 Objectives, Scope and Methodology                                              2
 Summary of Results                                                             4
 Review of Prior Audit Recommendations                                          7
 Summary of MSH Response to Findings                                           12

Independent Auditor’s Report on Fund Accountability Statement                  13

Fund Accountability Statement                                                  15

Notes to Fund Accountability Statement                                         16

Independent Auditor’s Report on Internal Control                               18

Independent Auditor’s Report on Compliance                                     20

Findings and Responses                                                         22

Appendices:
 Appendix A: MSH Response to Findings                                          28
 Appendix B: MSH Responses to USAID Compliance Review of Tech-Serve Program
  (September 2012)                                                             30
                         MANAGEMENT SCIENCES FOR HEALTH

                            Financial Audit of Costs Incurred under
                 Associate Cooperative Agreement No. 306-A-00-06-00522-00

                     For the Period July 1, 2006 through December 31, 2012


SUMMARY

Background

The Office of Special Inspector General for Afghanistan Reconstruction (SIGAR) contracted with
Mayer Hoffman McCann P.C. (MHM) to perform a Financial Audit of Costs Incurred under
Associate Cooperative Agreement No. 306-A-00-06-00522-00 (Agreement) between
Management Sciences for Health (MSH) and the United States Agency for International
Development (USAID) for the period July 1, 2006 through December 31, 2012.

Effective July 1, 2006, USAID entered into an Associate Cooperative Agreement with MSH in
the total estimated amount of $23,999,520. At the time of award, USAID obligated $2,168,091.
The original period of performance was through June 30, 2010. This Agreement was modified
27 times (26 modifications and one letter extension of the period of performance) increasing the
total amount to $100,548,457 and extending the period of performance through April 30, 2013.

A cooperative agreement is an agreement in which one of the parties is the Federal
government, in this case USAID. The Federal agency has substantial involvement with the
recipient throughout the period of performance. In this case, substantial involvement included:

   •   Approval of annual work plans, and all modifications, which described the specific
       activities to be carried out;
   •   Designation of key positions and approval of changes in key personnel;
   •   Approval of monitoring and evaluation plans; and
   •   Involvement in monitoring progress toward the achievement of the objectives and
       expected results throughout the period of performance.

Under the Agreement, MSH worked with the Ministry of Public Health (MOPH) at the central and
provincial level to build its capacity to perform its primary function of guiding the health system
by establishing national health objectives that addressed national health priorities while ensuring
equity and fostering sustainability. Technical Support to the Central and Provincial Ministry of
Public Health (Tech-Serve) provided ongoing technical assistance in key public health technical
areas and engaged both central and provincial managers in developing their management and
leadership skills to focus on health results and accountability. The Tech-Serve Management
Support for Provinces (MSP) initiative worked directly with provincial health directors and their
teams to effectively articulate their health priorities, strategies to address health needs, to plan,
implement the strategies and to monitor their activities.




                                                 1
                         MANAGEMENT SCIENCES FOR HEALTH

                             Financial Audit of Costs Incurred under
                  Associate Cooperative Agreement No. 306-A-00-06-00522-00

                     For the Period July 1, 2006 through December 31, 2012


SUMMARY

Objectives, Scope and Methodology

Objectives

The objectives of the audit include the following:

   •    Internal Controls – Evaluate and obtain a sufficient understanding of MSH’s internal
        controls related to the award; assess control risk; and identify and report on significant
        deficiencies including material internal control weaknesses.

   •    Compliance – Perform tests to determine whether MSH complied, in all material
        respects, with the award requirements and applicable laws and regulations; and identify
        and report on instances of material noncompliance with terms of the award and
        applicable laws and regulations, including potential fraud or abuse that may have
        occurred.

   •    Corrective Action on Prior Audit Recommendations – Determine and report on whether
        MSH has taken adequate corrective action on prior external audit report
        recommendations or other external assessment recommendations.

   •    The Fund Accountability Statement (FAS) – Express an opinion on whether the FAS
        presents fairly, in all material respects, revenues received, costs incurred, items directly
        procured by the U.S. Government and fund balance for the period audited in conformity
        with the terms of the award and generally accepted accounting principles or other
        comprehensive basis of accounting.


Scope

The scope of this audit included all costs incurred during the period July 1, 2006 through
December 31, 2012 under Associate Cooperative Agreement No. 306-A-00-06-00522-00
between MSH and USAID. Our testing of overhead was limited to determining that the
overhead was calculated using the correct final negotiated overhead rate or provisional
overhead rate, as applicable for the given fiscal year, as approved by USAID.


Methodology

In order to accomplish the objectives of this audit, we designed our audit procedures to include
the following:




                                                 2
                        MANAGEMENT SCIENCES FOR HEALTH

                           Financial Audit of Costs Incurred under
                Associate Cooperative Agreement No. 306-A-00-06-00522-00

                    For the Period July 1, 2006 through December 31, 2012


SUMMARY

Entrance Conference

An entrance conference was held via conference call on December 11, 2012 with
representatives of MSH, SIGAR and USAID in attendance.

Planning

During our planning phase, we performed the following:

   •   Obtained an understanding of MSH;
   •   Reviewed awards to MSH;
   •   Reviewed regulations specific to the funding agency of the award;
   •   Performed a financial reconciliation; and
   •   Selected samples based on our approved sampling techniques.

Internal Control Related to the FAS

We reviewed MSH’s internal controls related to the FAS. This review was accomplished
through interviews with management and key personnel, review of policies and procedures,
identifying key controls within significant transaction cycles, and testing those key controls.

Compliance with the Cooperative Agreement Requirements and Applicable Laws and
Regulations

We reviewed the Agreement and modifications and documented all compliance requirements
that could have a direct and material effect on the FAS. We assessed inherent and control risk
as to whether material noncompliance could occur. Based upon our risk assessment, we
designed procedures to test a sample of transactions to ensure compliance.

Corrective Action on Prior Audit Recommendations

We requested all prior audit reports and recommendations provided in order to evaluate the
status of the prior audit recommendations by reviewing evidence of any corrective actions
taken. See the Review of Prior Audit Recommendations subsection of this Summary for a
status of applicable prior findings.

Fund Accountability Statement

In reviewing the FAS, we performed the following:

   •   Reconciled the costs on the FAS to the Agreement and general ledger;
   •   Traced receipt of funds to the accounting records; and


                                              3
                         MANAGEMENT SCIENCES FOR HEALTH

                              Financial Audit of Costs Incurred under
                   Associate Cooperative Agreement No. 306-A-00-06-00522-00

                     For the Period July 1, 2006 through December 31, 2012


SUMMARY

   •   Sampled and tested the costs incurred to ensure the costs were allowable, allocable to
       the Agreement and reasonable.

Pre-Exit Conference

A pre-exit conference was held on March 12, 2013 with MSH to discuss the status of the audit.
A final pending list consisting of items requiring follow-up and/or additional documentation from
MSH was provided to MSH along with a due date for submission.

Exit Conference

An exit conference was held on March 13, 2013. Attendees included MSH, SIGAR and USAID.
During the exit conference, we discussed the preliminary results of the audit and established a
timeline for providing any final documentation for consideration and reporting.


Summary of Results

Our audit of the costs incurred by MSH under the Agreement with MSH identified the following
matters:

Questioned Costs

There are two categories of questioned costs, ineligible and unsupported. Ineligible costs are
those costs that are deemed to not be allowable in accordance with the terms of the Agreement
and applicable laws and regulations. Unsupported costs are those costs for which inadequate
supporting documentation was provided for our review. A summary of questioned costs is as
follows.

Ineligible Costs

   •   Entertainment cost related to farewell parties, special holiday celebrations, etc, totaling
       $6,345 was charged to the Agreement as other direct costs. See Finding 2013-1 in the
       Findings and Responses section of this report. We were unable to determine whether
       there were other entertainment related costs claimed since the description of other
       expense transactions detail described in the general ledger does not clearly distinguish
       the nature of the expenses.




                                                4
                           MANAGEMENT SCIENCES FOR HEALTH

                            Financial Audit of Costs Incurred under
                 Associate Cooperative Agreement No. 306-A-00-06-00522-00

                     For the Period July 1, 2006 through December 31, 2012


SUMMARY

Unsupported Costs

   •   Supporting documentation including timesheets and payroll payment vouchers for wages
       paid to three sampled local staff totaling $6,277 could not be located. See Finding 2013-
       2 in the Findings and Responses section of this report.

   •   MSH disposed of 11 computers during the audit period; however, no documentation was
       provided to substantiate the disposition. The computers were acquired between 2008
       and 2011. The fair market value of the computers is $44, which has been questioned.
       See Finding 2013-3 in the Findings and Responses section of this report.

Total questioned costs as a result of our audit are as follows:

       Ineligible costs                           $ 6,345
       Unsupported costs                            6,321

        Total questioned costs                       $12,666


Internal Control Findings

Internal control findings are classified into three categories, deficiency, significant deficiency,
and material weakness. A deficiency in internal control exists when the design or operation of a
control does not allow management or employees, in the normal course of performing their
assigned functions, to prevent, or detect and correct, misstatements on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance. A material weakness is a deficiency, or a combination of deficiencies, in
internal control, such that there is a reasonable possibility that a material misstatement of the
FAS will not be prevented, or detected and corrected on a timely basis. A summary of the
internal control findings noted as a result of the audit are as follows:

Material Weaknesses

No material weaknesses were reported.

Significant Deficiencies

The following significant deficiency was reported:




                                                 5
                       MANAGEMENT SCIENCES FOR HEALTH

                           Financial Audit of Costs Incurred under
                Associate Cooperative Agreement No. 306-A-00-06-00522-00

                   For the Period July 1, 2006 through December 31, 2012


SUMMARY

      Finding                                                                    Auditee’s
      Number            Internal Control Finding – Significant Deficiency       Concurrence
      2013-2      During our testing of salaries and wages, MSH was unable        Agree
                  to provide supporting documentation consisting of
                  timesheets and payroll payment vouchers for three
                  sampled local staff wages totaling $6,277.

The complete management responses from MSH to these internal control findings can be found
in the Findings and Responses section of this report.

Deficiencies

No deficiencies were reported.


Compliance Findings

As part of obtaining reasonable assurance about whether the FAS is free from material
misstatement, we performed tests of its compliance with certain provisions of the Agreement
and other laws and regulations, noncompliance with which could have a direct and material
effect on the determination of FAS. The results of our tests disclosed the following compliance
findings as described Findings and Responses section of this report.

      Finding                                                                    Auditee’s
      Number                          Compliance Finding                        Concurrence
      2013-1      MSH included entertainment expenses in the amount of            Agree
                  $6,345 for welcome and farewell parties, as well as special
                  holiday celebrations, as part of other direct costs. See
                  Finding 2013-1.

       2013-3     MSH was not able to provide evidence of the disposal of 11       Agree
                  pieces of equipment acquired under the Agreement
                  resulting in questioned costs of $44. See Finding 2013-3.


The complete management response from MSH to this compliance finding can be found in the
Findings and Responses section of this report.




                                              6
                        MANAGEMENT SCIENCES FOR HEALTH

                            Financial Audit of Costs Incurred under
                 Associate Cooperative Agreement No. 306-A-00-06-00522-00

                    For the Period July 1, 2006 through December 31, 2012


SUMMARY

Review of Prior Audit Recommendations

The following prior audit recommendations were reviewed as part of the scope of this audit.
This presentation has been included in order to provide users of this report with background
information that may prove beneficial to their analysis of this report’s results. In responding to
the findings included as part of our audit, MSH also included responses to the prior audit.
These responses have been presented in this section as well, and also verbatim in Appendix A
to this report. MSH disagreed with 12 of the 14 findings identified and did not accept that
corrective action was necessary. MSH accepted 2 of the findings, but indicated that there was
no opportunity to remediate them because the related subawards had ended. We have
included the current status of each recommendation.


Single Audit Reports

MSH provided the seven prior years’ Single Audit reports in accordance with Office of
Management and Budget Circular A-133. No findings were noted.


USAID Compliance Review of Tech-Serve Program (September 2012)

USAID performed agreed-upon procedures related to regulatory compliance associated with
vetting and procurement of the Tech-Serve Program. MSH indicated SIGAR recognized that
the amount of time spent by the audit firm was not sufficient enough for a thorough compliance
review and that it was part of a general and broad review of compliance across USAID’s
implementing partners. See Appendix B for MSH’s responses to the findings in this report. The
following findings were noted:

   1)    Vetting for the subaward to Handicap International FPTA-08-01 was not performed as
         per the Mission Order 201.04 requirement.

   2)    2 CFR 175 Award Term for Trafficking in Persons was not included in award
         instruments for subawards.

   3)    Mission Order appendix F “Mandatory Clauses” III Restriction on Foreign Purchases
         was not updated in subaward instruments.

   4)    Screening on United Nations Security Sanctions (UNSC) in accordance with UNSC
         1267 as per the requirement of Mandatory clauses was not carried out.

   5)    An organizational chart was not prepared and maintained.




                                                7
                         MANAGEMENT SCIENCES FOR HEALTH

                             Financial Audit of Costs Incurred under
                  Associate Cooperative Agreement No. 306-A-00-06-00522-00

                     For the Period July 1, 2006 through December 31, 2012


SUMMARY

   6)     There was no formalized documented business continuity and disaster recovery plan
          in place.

   7)     Terms of Reference (ToRs) and minutes of the meetings of the Management
          Committee were not documented.

   8)     A variance analysis of the budget was not performed.

   9)     There was a lack of dual controls over bank authorized signatory.

   10)    There was a lack of controls over petty cash management.

   11)    There was no defined petty cash limit.

   12)    An external audit for the project has not been performed.

   13)    Procurements were not advertised.

   14)    Monitoring and evaluation (M&E) personnel were also a member of the bid evaluation
          committee.

Current Status: MSH disagreed with 12 of the 14 findings and did not accept that corrective
action was necessary. MSH accepted the other two findings, but there was no opportunity to
remediate them because the related sub-awards had ended. Their disagreements were based
upon the following:

   •     Finding 1 – Mission Order 201.04, was not effective until May 9, 2011. The requirement
         was added to the Agreement through Modification 18 dated June 27, 2011. Handicap
         International, which was issued as a fixed-price grant, not contract, had a period of
         performance from October 1, 2008 through April 30, 2010. Therefore, this grant was
         completed before the vetting requirement was put in place.

   •     Finding 4 – Prior to issuing a contract, subcontract, subagreement, grant, or purchase
         order, it is MSH’s policy to screen all vendors against the following Global Watch Lists:

            o   Office of Foreign Assets Control (OFAC) Specially Designated Nationals and
                Blocked Persons List (SDN);
            o   Bureau Of Industry and Security (BIS);
            o   Entity List;
            o   Denied Persons List;
            o   Unverified List;
            o   Excluded Parties List System (EPLS);



                                                   8
                      MANAGEMENT SCIENCES FOR HEALTH

                          Financial Audit of Costs Incurred under
               Associate Cooperative Agreement No. 306-A-00-06-00522-00

                  For the Period July 1, 2006 through December 31, 2012


SUMMARY

         o   Department of State;
         o   Nonproliferation Sanctions;
         o   Debarred Parties List;
         o   FBI Wanted Fugitives (FBI);
         o   United Nation Sanction List (UNSL);
         o   World Bank Ineligible Firms (WBNK); and
         o   Interpol.

      The requirements for UNSC 1267 are met by the screening against the United Nations
      Sanctions List. Copies of all Clearance Verifications for subawards under Tech-Serve
      were made available to the reviewers at their request.

  •   Finding 5 – According to MSH corporate standards, all projects create and maintain
      organograms that are revised throughout the life of the project and activity
      implementation. The Tech-Serve organogram is on file in the MSH Afghanistan office,
      and has been included in previous communications with the USAID Health Team in
      Kabul.

  •   Finding 6 – According to MSH corporate standards, all critical financial and project data
      and documentation is stored on the MSH IT and computer network, and is backed up on
      a hard drive on a monthly basis. This monthly backup is stored at a separate location in
      case of fire or other catastrophic event. All accounting files (QuickBooks) are archived
      at the Headquarters, and as a worse case scenario, can be reinstalled with no more than
      a partial month of data requiring reentry. On a recurrent basis, the accounting team is
      required to backup the file onto external media (flash drive.) The default is after every
      4th time opening the file.

  •   Finding 7 – The MSH Afghanistan Country Leadership Team (CLT) has an approved
      Terms of Reference that contains all of the recommended specifications. The CLT
      includes the Project Directors for each of the USAID projects in the office, and the job
      descriptions for each of the Project Directors include additional specifications of their
      roles and responsibilities in the CLT. Each individual project, including Tech-Serve,
      maintains internal management team meetings. These meetings, and the roles and
      responsibilities of the members, are specified in the job descriptions of each
      management position.

  •   Finding 8 – Tech-Serve had a Branding and Marking Plan approved by USAID. This
      Plan was used by the senior management team as a reference document on a regular
      basis, and it provided specific regulation to communications protocols and templates.
      The management team of the project conducted all external project communications in
      accordance with this approved Plan. All members of the staff who had need of this
      document had access to it and used it on a regular basis.


                                              9
                       MANAGEMENT SCIENCES FOR HEALTH

                           Financial Audit of Costs Incurred under
                Associate Cooperative Agreement No. 306-A-00-06-00522-00

                   For the Period July 1, 2006 through December 31, 2012


SUMMARY

  •   Finding 9 – According to MSH corporate standards, practices and procedures, each
      project conducts monthly and quarterly budget reviews in coordination with the home
      office support teams and the Chief Financial Officer. This information is then used to
      support regular workplan and workplan budget discussions with USAID on a minimum of
      an annual basis. Each project provides information to the MSH Finance Team to
      support cash requests for the following month, and the comprehensive request for all
      projects is sent to the home office. This request is detailed, and requests funds on an
      individual project basis at the level of major chart of account line items. The MSH home
      office team reviews these cash forecasts on an individual monthly basis, and over time.
      Actual expenditures are reconciled to cash forecasts and budgets of each individual
      project on a monthly basis, which feed into the budget reviews.

  •   Finding 10 – According to MSH corporate standards, policies and practices, the MSH
      Afghanistan bank account has three approved signatories in Kabul. This includes the
      MSH Country Representative, the COMU Director, and the Chief of Party of the Tech-
      Serve project. The bank account has two additional signatories in the home office to
      ensure access to the account if the three primary signatories are not available. For any
      individual transaction, only one signatory is required. However, that financial signatory
      authority is the implementation of final approvals that are regulated by a rigorous internal
      control system, including the approved technical signatory for any individual project.
      MSH requires strict segregation of duties among the roles of personal, programmatic,
      financial and fiduciary signatories. It is not feasible to have multiple financial signatories
      on each individual transaction. MSH Afghanistan maintains internal checks and
      balances that ensure that all financial transactions are controlled according to USAID
      rules and regulations.       Each individual bank transaction is recorded by email
      communications to both the Kabul and home offices. Daily cash payments are
      reconciled against Finance team records. Finally, monthly expenditures are reviewed in
      the home office by the individual projects to ensure appropriate technical approvals were
      provided for each transaction.

  •   Finding 11 – MSH Afghanistan does not maintain a petty cash system. MSH
      Afghanistan recognizes the benefits of paying staff salaries through bank transfer, and
      continues to work with the staff to accept such a change. However, due to the
      confidence in the bank system, this has not been possible to date. MSH Afghanistan will
      continue to work with the staff to make this shift, when appropriate. MSH Corporate
      policy requires strict limits on cash expenditures. However, for the duration of tenure in
      Afghanistan, standards for and access to banking have been limited. Operating with a
      high level of cash has been necessary in order to operate the large programs conducted
      over the past ten years. Since the high risks have been well known, the cash
      management and accounting system in Afghanistan has been highly scrutinized, audited
      and overseen at both the local and international level.




                                               10
                        MANAGEMENT SCIENCES FOR HEALTH

                            Financial Audit of Costs Incurred under
                 Associate Cooperative Agreement No. 306-A-00-06-00522-00

                    For the Period July 1, 2006 through December 31, 2012


SUMMARY

   •   Finding 12 – MSH conducts all audits required by project contracts/agreements, laws in
       the US or host country, or by other applicable regulations. The only requirement for
       external audits applicable to the Tech-Serve project is for an annual external audit of all
       MSH activities worldwide, to be performed by an independent auditor in accordance with
       OMB Circular A-133. This audit was performed in 2012 by MSH’s independent external
       auditors, Tonneson & Co; and we expect it to be completed by December 31, 2012. This
       document is made available online and a summary is posted to the Federal
       Clearinghouse, but we would also be happy to provide copies to any USAID office upon
       request. There is no requirement for an additional external audit just of MSH’s
       operations in Afghanistan, or of just the Tech-Serve project.

   •   Finding 13 – According to MSH corporate standards, practices and policies, and USAID
       regulations, all major procurements are competed and are communicated widely to
       ensure open competition. Major procurement Request for Proposals (RFPs) are
       communicated to vendors through the internet (ACBAR or other websites, email, etc.), or
       through telephone contact with a list of reliable vendors. Due to the local operational
       and security environment, MSH Afghanistan does not advertise procurement RFPs
       through the local print or television media. MSH has found that such advertisements
       increase the profile of MSH and its USAID projects, and opens these projects up to
       cases of fraud, corruption and potential security threats.

   •   Finding 14 – MSH Afghanistan rotates the membership of bid evaluation committees in
       order to ensure transparency in the selection of bidders, and to ensure best value to the
       US government. On this basis, each of the individual technical teams from any of the
       projects can expect to have team members called in to participate in the bid evaluations.
       The M&E personnel of Tech-Serve and the other projects do not have responsibilities or
       a mandate to monitor financial, procurement or other project support functions. Although
       they do monitor the performance of the project overall, this performance level is distant
       from the periodic participation in individual bid selections that there is not a conflict of
       interest between the two functions.

Corrective actions were implemented for Findings 2 and 3 as follows:

   •   Finding 2 – The Standard Provision “Trafficking in Persons (OCTOBER 2010)” was
       incorporated into the Agreement through Modification 7 on May 7, 2011. Three of the
       four subawards issued under Tech-Serve were issued prior to May 7, 2011. Two of the
       four subawards were completed prior to May 7, 2012. HPRO’s FPTA 10-01 had a
       period of performance that ended June 15, 2011. The guidance in AAPD 11-01 is that
       “All AOs must include the provision "Trafficking in Persons" in all new awards and must
       modify existing awards to include the provision “Trafficking in Persons" at the “earliest
       practical opportunity”. There was no “practicable opportunity” to modify this subaward




                                               11
                        MANAGEMENT SCIENCES FOR HEALTH

                            Financial Audit of Costs Incurred under
                 Associate Cooperative Agreement No. 306-A-00-06-00522-00

                    For the Period July 1, 2006 through December 31, 2012


SUMMARY

       before its completion. MSH agreed that the “Trafficking in Persons” Standard Provision
       should have been incorporated into the HPRO FPTA 11-01 issued December 23, 2011.

   •   Finding 3 – Vetting, per Mission Order 201.04, was effective May 9, 2011. The
       requirement was added to the Agreement through Modification 18 dated June 27, 2011.
       Three of the four subawards were issued prior to May 9, 2011. Two of those had
       completion dates prior to May 9, 2011. The third had a completion date of June 15,
       2011, before the issuance of Modification 18. MSH agreed that the “Mandatory Clauses”
       III Restriction on Foreign Purchases in Appendix F of Mission Order 201.04 should have
       been incorporated into the HPRO FPTA 11-01 issued December 23, 2011.


Summary of MSH Response to Findings

The following represents a summary of the responses provided by MSH to the findings identified
in this report, and clarifications it provided related to the recommendations from the prior audit.

Response to Findings

   •   Finding 2013-1: MSH considered the entertainment expenses to be meetings when
       recording the transactions in its accounting records. However, MSH accepts that the
       costs can be considered ineligible.

   •   Finding 2013-2: MSH acknowledged this finding due to documentation being misplaced
       at the beginning of the project and plans to review its practices surrounding document
       retention.

   •   Finding 2013-3: MSH responded that the items were scrapped and it was not possible
       to obtain receipts. In the future, they will seek an approved scrap merchant and obtain a
       receipt of disposal.

Reponses to Review of Recommendations from Prior Audit

MSH did not believe the USAID Compliance Review of the Tech-Serve Program (September
2012) was thoroughly performed and requested that the full Compliance Review findings and
responses be attached to this report to give the reader a complete picture. As requested by
MSH, the responses to the findings in the Compliance Review have been included as Appendix
B to this report.




                                                12
Board of Directors
Management Sciences for Health
784 Memorial Drive
Cambridge, Massachusetts 02139



                             INDEPENDENT AUDITOR’S REPORT
                           ON FUND ACCOUNTABILITY STATEMENT


Report on the Fund Accountability Statement

We have audited the accompanying Fund Accountability Statement of Management Sciences
for Health (MSH) under Associate Cooperative Agreement No. 306-A-00-06-00522-00
(Agreement) with the United States Agency for International Development (USAID) for the
period July 1, 2006 through December 31, 2012.


Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of the Fund Accountability
Statement in accordance with accounting principles generally accepted in the United States of
America; this includes the design, implementation, and maintenance of internal control relevant
to the preparation and fair presentation of the Fund Accountability Statement that is free from
material misstatement, whether due to fraud or error.


Auditor’s Responsibility

Our responsibility is to express an opinion on the Fund Accountability Statement based on our
audit. We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain reasonable assurance
about whether the Fund Accountability Statement is free from material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and
disclosures in the Fund Accountability Statement. The procedures selected depend on the
auditor’s judgment, including the assessment of the risks of material misstatement of the Fund
Accountability Statement, whether due to fraud or error. In making those risk assessments, the
auditor considers internal control relevant to the entity’s preparation and fair presentation of the
Fund Accountability Statement in order to design audit procedures that are appropriate in the


                                                13
Board of Directors
Management Sciences for Health
784 Memorial Drive
Cambridge, Massachusetts 02139

circumstances, but not for the purpose of expressing an opinion on the effectiveness of the
entity’s internal control. Accordingly, we express no such opinion. An audit also includes
evaluating the appropriateness of accounting policies used and the reasonableness of
significant accounting estimates made by management, as well as evaluating the overall
presentation of the Fund Accountability Statement.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a
basis for our audit opinion.


Opinion

In our opinion, the Fund Accountability Statement referred to above present fairly, in all material
respects, the respective revenue received and costs incurred by MSH under the Agreement for
the period July 1, 2006 through December 31, 2012 in accordance with the basis of accounting
as described in Note 2.


Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our reports dated May
2, 2013 on our consideration of MSH's internal control over financial reporting and on our tests
of its compliance with certain provisions of laws, regulations, contracts, and grant agreements
and other matters. The purpose of those reports are to describe the scope of our testing of
internal control over financial reporting and compliance and the results of that testing, and not to
provide an opinion on internal control over financial reporting or on compliance. Those reports
are an integral part of an audit performed in accordance with Government Auditing Standards in
considering MSH’s internal control over financial reporting and compliance.


This report is intended for the information of Management Sciences for Health, USAID, and
SIGAR. Financial information in this report may be privileged. The restrictions of 18 USC 1905
should be considered before any information is released to the public.




Irvine, California
May 2, 2013




                                                14
                               MANAGEMENT SCIENCES FOR HEALTH
                                  Financial Audit of Costs Incurred under
                       Associate Cooperative Agreement No. 306-A-00-06-00522-00

                                         Fund Accountability Statement

                          For the Period July 1, 2006 through December 31, 2012




                                                                                     Questioned Costs
                                              Budget                 Actual      Ineligible Unsupported    Notes
Revenues:
   306-A-00-06-00522-00                  $ 100,548,457          $ 85,474,135     $     -     $      -       (3)

Total revenues                               100,548,457            85,474,135         -            -

Costs incurred:
   Allowances                                  3,822,445             3,300,613         -             -
   Consultants                                 5,908,877             5,324,564         -             -
   Equipment                                     413,616               340,435         -              44    (4)
   Other direct costs                         44,445,456            35,480,933       6,345           -      (5)
   Overhead                                   11,919,521            10,486,198         -             -
   Salaries and wages                         23,167,918            21,337,769         -          6,277     (6)
   Contracted services                           434,819               483,397         -             -
   Training                                    4,727,867             3,872,019         -             -
   Travel and transportation                   5,707,938             4,883,449         -             -

Total costs incurred                         100,548,457            85,509,377       6,345        6,321

Outstanding fund balance (deficit)       $             -        $      (35,242) $ (6,345) $      (6,321)    (7)




                                     See Notes to Fund Accountability Statement

                                                           15
                      MANAGEMENT SCIENCES FOR HEALTH

                          Financial Audit of Costs Incurred under
               Associate Cooperative Agreement No. 306-A-00-06-00522-00

                          Notes to Fund Accountability Statement

                  For the Period July 1, 2006 through December 31, 2012


(1)   Status and Operation

      Management Sciences for Health, Inc. (MSH) was established in 1971 to support the
      development and application of management concepts in the fields of public health and
      preventive medicine throughout the world. MSH has U.S. offices in Cambridge,
      Massachusetts and Arlington, Virginia, and field offices in various developing countries.

      The Internal Revenue Service has recognized MSH as a tax-exempt organization under
      Section 501(c)(3) of the Internal Revenue Code. Section 501(c)(3) provides for the
      exemption of organizations that are organized and operated exclusively for religious,
      charitable, scientific, literary or educational purposes, and whose net earnings do not
      inure to the benefit of any private shareholder or individual.


(2)   Summary of Significant Accounting Policies

      (a)    Basis of Accounting

             The Fund Accountability Statement reflects the revenues received and expenses
             incurred under Associate Cooperative Agreement 306-A-00-06-00522-00
             (Agreement). It has been prepared on the cash basis of accounting. Under the
             cash basis of accounting, revenues are recognized when received and expenses
             are recognized when paid.

      (b)    Foreign Currency Conversion Method

             MSH converts its expenses that were paid in local currency (Afghanis) into
             reporting currency (U.S. Dollar) by applying a rolling average of conversion rates.
             The conversion rates used for the rolling average were comprised of the rates
             the bank used for transfers of money from MSH.

      (c)    Questioned Costs

             There are two categories of questioned costs, ineligible and unsupported.
             Ineligible costs are those costs that are deemed to not be allowable in
             accordance with the terms of the Agreement and applicable laws and
             regulations. Unsupported costs are those costs for which no or inadequate
             supporting documentation was provided.




                                             16
                        MANAGEMENT SCIENCES FOR HEALTH

                          Financial Audit of Costs Incurred under
               Associate Cooperative Agreement No. 306-A-00-06-00522-00

                           Notes to Fund Accountability Statement

                                        (Continued)


(3)   Revenues

      As of December 31, 2012, MSH has received $85,474,135 in payments from the United
      States Agency for International Development (USAID) under the Agreement.


(4)   Equipment

      MSH reported equipment costs in the amount of $340,435 for the period July 1, 2006
      through December 31, 2012. During the period, MSH disposed of 11 computers for
      which there was no record of disposal. The fair market value of the disposed computers
      is $44. This cost has been questioned. See Finding 2013-3 in the Findings and
      Responses section of this report.


(5)   Other Direct Costs

      MSH reported other direct costs in the amount of $35,480,933 for the period July 1, 2006
      through December 31, 2012. Included in other direct costs were expenses related to
      farewell parties, special holiday celebrations, etc, totaling $6,345. These costs are
      deemed ineligible in accordance with Office of Management and Budget (OMB) Circular
      A-122. See Finding 2013-1 in the Findings and Responses section of this report.


(6)   Salaries and Wages

      MSH reported costs for salaries and wages in the amount of $21,337,769 for the period
      July 1, 2006 through December 31, 2012. Supporting documentation including
      timesheets and payroll payment vouchers was not provided for three sampled local
      professional wages incurred in July 2006 in the amount of $6,277. As such, these costs
      are deemed unsupported. See Finding 2013-2 in the Findings and Responses section
      of this report.


(7)   Reconciliations

      An outstanding fund balance deficit of $35,242 occurred due to timing of receipts as the
      Fund Accountability Statement is prepared on the cash basis. The deficit represents an
      amount that MSH had invoiced to USAID, but had not yet received as of December 31,
      2012.




                                             17
          REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING
         BASED ON AN AUDIT OF THE FUND ACCOUNTABILITY STATEMENT
      PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS



                                 Independent Auditor’s Report


Board of Directors
Management Sciences for Health
784 Memorial Drive
Cambridge, Massachusetts 02139


We have audited, in accordance with the auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States, the Fund
Accountability Statement of Management Sciences for Health (MSH) for the period July 1, 2006
through December 31, 2012, and the related Notes to the Fund Accountability Statement, and
have issued our report thereon dated May 2, 2013.


Internal Control Over Financial Reporting

In planning and performing our audit of the Fund Accountability Statement, we considered
MSH's internal control over financial reporting (internal control) to determine the audit
procedures that are appropriate in the circumstances for the purpose of expressing our opinions
on the Fund Accountability Statement, but not for the purpose of expressing an opinion on the
effectiveness of MSH’s internal control. Accordingly, we do not express an opinion on the
effectiveness of MSH’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct, misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance.




                                                18
Board of Directors
Management Sciences for Health
784 Memorial Drive
Cambridge, Massachusetts 02139

Our consideration of internal control was for the limited purpose described in the first paragraph
of this section and was not designed to identify all deficiencies in internal control that might be
material weaknesses or significant deficiencies and therefore, material weaknesses or
significant deficiencies may exist that were not identified. Given these limitations, during our
audit we did not identify any deficiencies in internal control that we consider to be material
weaknesses. However, material weaknesses may exist that have not been identified. We did
identify one deficiency in internal control, described in the accompanying Findings and
Responses as item 2013-2 that we consider to be a significant deficiency.


MSH’s Responses to Findings

MSH’s responses to the findings identified in our audit are described in the accompanying
Findings and Responses. MSH’s responses were not subjected to the auditing procedures
applied in the audit of the Fund Accountability Statement and, accordingly, we express no
opinion on them.


Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and
the result of that testing, and not to provide an opinion on the effectiveness of the MSH’s
internal control. This report is an integral part of an audit performed in accordance with
Government Auditing Standards in considering the entity’s internal control. Accordingly, this
communication is not suitable for any other purpose. This report is intended for the information
of Management Sciences for Health, United States Agency for International Development, and
the Special Inspector General for Afghanistan Reconstruction. Financial information in this
report may be privileged. The restrictions of 18 USC 1905 should be considered before any
information is released to the public.




Irvine, California
May 2, 2013




                                                19
                REPORT ON COMPLIANCE AND OTHER MATTERS
         BASED ON AN AUDIT OF THE FUND ACCOUNTABILITY STATEMENT
      PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS



                                Independent Auditor’s Report


Board of Directors
Management Sciences for Health
784 Memorial Drive
Cambridge, Massachusetts 02139


We have audited, in accordance with the auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States, the Fund
Accountability Statement of Management Sciences for Health (MSH) for the period July 1, 2006
through December 31, 2012, and the related Notes to the Fund Accountability Statement, and
have issued our report thereon dated May 2, 2013.


Compliance and Other Matters

As part of obtaining reasonable assurance about whether MSH's Fund Accountability Statement
is free from material misstatement, we performed tests of its compliance with certain provisions
of laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts. However,
providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion. The results of our tests disclosed instances of
noncompliance or other matters that are required to be reported under Government Auditing
Standards and which are described in the accompanying Findings and Responses as items
2013-1 and 2013-3.


MSH’s Responses to Findings

MSH’s responses to the findings identified in our audit are described in the accompanying
Findings and Responses. MSH’s responses were not subjected to the auditing procedures
applied in the audit of the Fund Accountability Statement and, accordingly, we express no
opinion on them.


                                              20
Board of Directors
Management Sciences for Health
784 Memorial Drive
Cambridge, Massachusetts 02139

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the
result of that testing, and not to provide an opinion on compliance. This report is an integral part
of an audit performed in accordance with Government Auditing Standards in considering the
entity’s internal control. Accordingly, this communication is not suitable for any other purpose.
This report is intended for the information of Management Sciences for Health, United States
Agency for International Development, and the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.




Irvine, California
May 2, 2013




                                                21
                       MANAGEMENT SCIENCES FOR HEALTH

                           Financial Audit of Costs Incurred under
                Associate Cooperative Agreement No. 306-A-00-06-00522-00

                                  Findings and Responses

                   For the Period July 1, 2006 through December 31, 2012


2013-1: Entertainment Expenses Included as Other Direct Costs

Condition:
During our testing of other direct costs, we noted that Management Sciences for Health (MSH)
included entertainment expenses in the amount of $6,345 for welcome and farewell parties, as
well as special holiday celebrations as part of this cost category.


Criteria:
OMB Circular A-122, Attachment B, Paragraph 14, states

       “Entertainment costs. Costs of entertainment, including amusement, diversion,
       and social activities and any costs directly associated with such costs (such as
       tickets to shows or sports events, meals, lodging, rentals, transportation, and
       gratuities) are unallowable.”


Cause:
MSH considered these events to be meetings. The descriptions were used to describe the
importance of the event and the Afghan culture requiring the opportunity to share food in
recognition of the event itself.


Effect:
MSH incurred $6,345 of entertainment costs that we deem to be ineligible per OMB Circular A-
122 based upon the results of our testing. Reporting non-allowable entertainment costs as
meetings raises concerns about the propriety of MSH’s billing and specific concerns about the
extent of such charges.


Recommendation:
   1. We recommend that MSH return $6,345 in ineligible costs to the United States Agency
      for International Development (USAID).

   2. We recommend that MSH alert its employees to become more familiar with the
      requirements of OMB Circular A-122 and develop more effective policies and
      procedures to prevent ineligible costs from being claimed as reimbursable program costs.




                                             22
                        MANAGEMENT SCIENCES FOR HEALTH

                            Financial Audit of Costs Incurred under
                 Associate Cooperative Agreement No. 306-A-00-06-00522-00

                                   Findings and Responses

                                          (Continued)


2013-1: Entertainment Expenses Included as Other Direct Costs (Continued)

Management Response:
MSH maintains that these questioned costs were actually incorrectly described in the
accounting records and were not expended for entertainment purposes, but were related to
formal project activities and meetings. However, we accept the decision to disallow these costs
based on those misleading descriptions. MSH has provided guidance to its Finance Team in
Kabul to ensure that meeting costs are clearly and correctly described in all accounting entries
in the future. The Finance Team has also been reminded that, if MSH is considering incurring
any entertainment costs, these are unallowable under US grants or contracts according to OMB
A-122.




                                              23
                         MANAGEMENT SCIENCES FOR HEALTH

                            Financial Audit of Costs Incurred under
                 Associate Cooperative Agreement No. 306-A-00-06-00522-00

                                     Findings and Responses

                                            (Continued)


2013-2: Missing Source Documentation for Salaries and Wages

Condition:
Supporting documentation including timesheets and payroll payment vouchers for wages paid to
three sampled local professionals in July 2006 could not be located. The value of the missing
documentation was $6,277. .

Criteria:
OMB Circular A-122, Attachment A, Paragraph A.2 states in part:

       “Factors affecting allowability of costs. To be allowable under an award, costs
       must meet the following general criteria:…

       g. Be adequately documented…”


Cause:
MSH could not locate the records as the timesheets and payroll payment vouchers for the three
sampled individuals were misplaced.


Effect:
Failure to retain supporting documentation for costs incurred results in an inability for MSH to
demonstrate that USAID funds were used for intended purposes and in accordance with the
Associate Cooperative Agreement or applicable laws and regulations. The sampled costs were
statistically selected. Had the results of our testing been extrapolated to the population, the total
unsupported local professionals would be $415,289.


Recommendation:
   1. We recommend that MSH return $6,277 in questioned salaries and wages, including
      fringe and overhead, to USAID.

   2. We recommend that MSH improve its retention policies to ensure all required
      documentation to support costs incurred under the cooperative agreement is properly
      maintained.




                                                 24
                       MANAGEMENT SCIENCES FOR HEALTH

                           Financial Audit of Costs Incurred under
                Associate Cooperative Agreement No. 306-A-00-06-00522-00

                                   Findings and Responses

                                         (Continued)


2013-2: Missing Source Documentation for Salaries and Wages (Continued)

Management Response:
MSH acknowledges that the selected documentation for three payments to Local Professional
Staff in July, 2006 could not be located. These payments were made at the very beginning of
the project and the related documentation was mistakenly shipped back to the home office for
storage along with the previous project files and could not subsequently be traced. MSH found
the files for the previous and subsequent months, but unfortunately the ones for that month
were misplaced. MSH has clear documentation retention policies and will review its practices to
ensure that all documents are properly stored and retrievable.




                                              25
                        MANAGEMENT SCIENCES FOR HEALTH

                           Financial Audit of Costs Incurred under
                Associate Cooperative Agreement No. 306-A-00-06-00522-00

                                   Findings and Responses

                                          (Continued)


2013-3: Lack of Evidence for Disposal of Equipment

Condition:
During our testing of equipment disposals, we noted that evidence of disposal was not retained
for 11 out of 25 disposals tested. The disposals consisted of 11 computers with a cost of
$15,315 as follows:

                                              Date Placed
    Asset No.           Description            in Service          Cost
      0009         Dell laptop computer          7/13/08         $ 1,470
      7415         Dell laptop computer           8/9/10           1,470
      5637         Dell laptop computer           4/1/08           1,375
      5639         Dell laptop computer           4/1/08           1,375
      5642         Dell laptop computer           4/1/08           1,375
      5643         Dell laptop computer           4/1/08           1,375
      5647         Dell laptop computer           4/1/08           1,375
      5650         Dell laptop computer           4/1/08           1,375
      6208         Dell laptop computer         10/16/11           1,375
      0114         Dell laptop computer           4/1/08           1,375
      6071         Dell laptop computer           4/1/08           1,375

     Total                                                       $15,315


Criteria:
Leader with Associates Cooperative Agreement No.: GPO-A-00-05-00024-00 – Leadership
Management and Sustainability (LMS) Project, Attachment 3, Paragraph C.16, Title to and Care
of Property (Cooperating Country Title)(November 1985) states, in part:.

       “(c) The recipient shall prepare and establish a program, to be approved by the
       appropriate USAID mission, for the receipt, use, maintenance, protection,
       custody and care of equipment…The recipient shall be guided by the following
       requirements…

       (1) Property Control: The property control system shall include but not be limited
       to the following:…

       (v) A record of disposition of each item acquired or furnished under the award...”




                                               26
                       MANAGEMENT SCIENCES FOR HEALTH

                           Financial Audit of Costs Incurred under
                Associate Cooperative Agreement No. 306-A-00-06-00522-00

                                  Findings and Responses

                                        (Continued)


2013-3: Lack of Evidence for Disposal of Equipment (Continued)

Cause:
Evidence of disposal was not maintained due to USAID not requiring the return of the
equipment on the approved disposition plan. Equipment that was not to be used for another
agreement or donated to another agency was disposed of and the method of disposal was not
maintained or documented. However, these pieces of equipment were included on the
disposition list provided to USAID.


Effect:
Without evidence of disposal being maintained, equipment could be sold and the proceeds used
for something other than the objective of the Agreement without USAID’s knowledge. The total
fair market value of the 11 computers is $44. The fair market value was determined through
online queries of used computer equipment. This cost has been questioned.


Recommendation:
   1. We recommend that MSH return $44 in questioned equipment costs to USAID.

   2. We recommend that MSH establish procedures to ensure that all disposed equipment
      be properly tracked as required by the Agreement to ensure that USAID-funded
      equipment is properly disposed and proceeds are properly accounted for.


Management Response:
Based on a formal submission USAID approved that these pieces of equipment could be
discarded because the administrative cost of sale would be higher than scrap value of items.
The items were scrapped and it was not possible to obtain receipts. In the future when such
items are discarded MSH will seek an approved scrap merchant and obtain a receipt.




                                            27
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              APPENDIX A
        

        
        Management responses to MSH Draft Report were received via email from MSH’s Senior
        Director of Finance and Accounting, David Collins, on May 2, 2013 as presented below:
        
        
                       
                                                                                ✁                                                                                       ✂                                                                                       ✄                                                                                       ☎                                                                               ✆                                                                                               ✁                                                                                               ✝




        
                                                                                                                                                     
✞                                                       ✟                                                                               ✂                                                                                               ✠                                                                                                   ✡                                                                                   ☛                                                                                                                                                                                       ✆                                                                                   ✄                                                                                                                                                                               ✟                                                                                               ✁                                                                                                                                                                                                                               ✄                                                                       ✂                                                                                                                                                                                                                                                           ✂                                                                                           ✎                                                                                                                                                                                                                                                                                                                           ✄                                                   ✁                                                                                           ✑                                                                       ✆                                                                                       ✄                                                                                                                                                                                                                                                                                                                               ✎                                                                                           ✄                                                                                                   ✄                                                               ✁                                                                                       ☛                                                       ✑                                                                                                   ✆                                                                                   ✠                                                                                       ☛                                                                   ✁                                                                           ☛                                                                                           ✂                                                                                           ✄                                                   ✁                                                                                                                       ✑                                                                                           ✄                                                           ✆                                                                               ✔                                                                                                                                                                       ✁                                                                                                                                                                                                                                                                                               ✁                                                                       ✖                           ✆                                                                       ✗                                                                                       ✘



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                           ✒




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        ☞                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✍                                                                                                                                                                                                                                               ☞                                                                                                                                                                                                                                                                                                                                                       ✍                                                                                   ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✓                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✏                                   ✍                                                                                                                                                           ✍                                                                                                           ✕




        
               Ͳ                                                                                                                             
        ✙                                               ✚                                                                           ✛                                                                                                       ✜                                                                                                                                                   ✛                                                                                                       ✢                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✳                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✶                                                                           ✷




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    ✣                                                                                   ✤                                                                                                       ✥                                                               ✦                                                                                   ✧                                                                                           ✥                                                   ★                                                                           ✩                                               ✤                                                                                                           ✪                                                                                                                                               ✦                                                                                                       ✤                                                                                           ✥                                                                                               ✣                                                                       ✫                                                                               ✬                                                                                                           ✦                                                                   ✤                                                                                   ✭                                                                       ✦                                                                                       ✭                                                                                                               ✮                                       ✤                                                                                               ✯                                                                   ✰                                               ✱                                                                                           ✲                                                                                           ✦                                                                                       ✲                                                                                                                                   ★                                                                           ✭                                                                                                                                                                                                                       ✥                                           ✴                                                                                                   ✦                                                                           ✧                                                                                                   ✵                                                                                                           ✩                                           ✧                                               ✦                                                                               ✯                                                           ✥                                                                                                                                                                                                                                                   ✭                                                                       ✥                                               ✭




                                                              
            ✸                                                                                           ✂                                                                                           ✠                                                                                                       ✂                                                                                       ✹                                                                                               ✁                                                                                               ✺                                                                                                                                               ✁                                                                                                   ✠                                                                                                                                                                                                                                                                                                           ✁                                                                               ☛                                                                               ✑                                                                                                           ✆                                                                                   ✠                                                                                                       ☛                                                                   ✁                                                                                           ✘



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    ✌




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    ✻




        
                                                                                                                                                                                                       
            ✸                                                                                           ✼                                                                                       ✽                                                                                                                                                                       ✺                                                                                                                                                           ✂                                                                                                                                   ✠                                                                                                                                                               ✂                                                                                                                                   ✠                                                                                                               ☛                                                                                                                                                   ✟                                                                                                                   ✂                                                                                                                                                                                                                                                   ✟                                                                                                   ✁                                                                                           ☛                                                               ✁                                                                                                                                                                                                                       ✎                                                                       ✁                                                                           ☛                                                                                                                                                                       ✆                                                                                       ✠                                                                                           ✁                                                                                                                                                                                                                                                                                                                   ✆                                                                               ☛                                                                                                                               ☛                                                                                                       ✗                                                                                                               ✁                                                                               ✄                                                               ✁                                                                                                               ✂                                                                                                                                                                                                       ✎                                                                                           ✂                                                                                   ✖                           ✖                               ❀                                                                                                                                   ✠                                                                                                                                                   ✆                                                                               ✄                                                               ✄                                           ✁                                                                                                                                                                                   ✖                               ❀                                                                                                                                                               ✁                                                           ☛                                                                                                   ✄                                                                                                                                                   ✁                                                                                                                                                                                                           ✠                                                                                                                                                               ✟                                                                           ✁                                                                                                   ✂                                                                                                                                                                                               ✆                                                                   ✎                                                       ✠                                                                                                                                           ✠                                                               ✹



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        ✌                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                           ✌                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                ✏                                                                                                                                                                                                                                                                                           ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✾                                                                                                                                                                                                                                                                                                                                                                                                   ✏                                                                                                                                                                                                                                                                                                                   ✍                                                                                                                                       ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✏                                                                                                                   ✿                                                                                                                                                                                                                                                                                                                                   ✿                                                                                                                                                                                                                           ✍                                                                                                                                                                                       ✿                                                                                                           ✏                       ✕                                                                                                                                           ✍                                                                                                       ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✿                                                   ✿                                                                                                                                                                                                                                                                                                                   ✏




                                                                                                                                                                                                   
                ✄                       ✁                                                                                                                                               ✆                                                                                                           ✄                                                                                                                                                                       ☛                                                                                                                   ✂                                                                                       ✠                                                                                                                                                                                                                                               ✗                                                                                                                                                   ✁                                                                               ✄                                                   ✁                                                                                                                                               ✠                                                                                                       ✆                                                                                                                                                                                               ✁                                                                                           ❁                                                                   ✑                                                                                   ✁                                                                               ✠                                                                                                                                                                           ✁                                                                                                                                                                                                                                                                                       ✆                                                                                   ✄                                                                                                   ✁                                                                                   ✠                                                                                                                                                               ✁                                                                               ✄                                                                                                                       ✂                                                                                                                       ✠                                                                                   ✺                                                                                                                           ✁                                                                               ✠                                                                                                                                                                                   ✑                                                                                       ✎                                                                                       ✄                                                               ✑                                                                           ✆                                                                                   ☛                                                       ✁                                                                       ☛                                                                   ✝                                                                                                                                                   ✎                                                                                                                                                           ✗                                                                                               ✁                                                           ✄                                                       ✁                                                                                           ✄                                           ✁                                                               ✖                           ✂                                                                                                               ✁                                                                                                                                                                                                                   ✆                                                                                                                                                                   ✆                                                                               ✄                                           ✺                                                                                                           ✂                                                                       ✖                                                               ✑                                                       ✄                                                           ✆                                               ❂                                       ✁



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌




                                                                                                    ✿                                                                                                                                                                                                                                                               ✍                                                                                                                                                                                                                                                                                                                                                                                                                       ✍                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✍                                                                                                                                                       ✍                                                                                                                               ☞                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✕                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✍                                                                                                                                                                                                                                                                       ☞                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✿




                                                                                                                                                                                                   
                ✂                                                                                                                                                                                                                   ✔                                                                                                                                                                                                                                               ✁                                                                                   ☛                                                                                                                           ✂                                                                                           ✠                                                                                                                                                                                                                                           ✺                                                                                                                                               ✁                                                                                       ✁                                                                                                                                                                                                               ✠                                                                                   ✹                                                                                               ☛                                                                                                                                               ✽                                                                                                       ✆                                                                                       ✗                                                                                                                       ✁                                                                                   ✔                                                                           ✁                                                                               ✄                                                                           ✝                                                                   ✗                                                                                                                               ✁                                                                                                                           ✂                                                                                                                                                                                                                                   ✁                                                                                           ✑                                                                                                                                                                                                                                       ✟                                                                                   ✁                                                                                                                                                                                                           ✁                                                                                                                                                                                               ☛                                                                                                           ✆                                                                               ✠                                                                                                                                                           ✆                                                                                                                                                                                                                                               ☛                                                           ✂                                                                       ✖                           ✖                           ✆                                                                       ✗                                                                                                                                                                       ✟                                                                       ✁                                                   ☛                                                       ✁                                                                                                                                                           ✆                                                                       ☛                                                                                           ☛                                                                                                                                                                               ✂                                                                       ☛                                               ✁                                                                                                                                                                                   ✆                                                                               ✠                                                                                                                                   ✟                                                               ✆                                                                   ☛                                               ✁



                                                                                                ✌                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                               ✒                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌




                                                        ✿                                                                                                                           ✏                                                                                                                                   ✏                                                                                                               ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✍                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✿                                                                           ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✍                                                                                                                                                                           ✿                                                                   ✏                                                                                                           ✏                                                                                                                                                                                                                                                                                                                                                                                                               ✍                                                                           ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✿                                                                                                                                                                                                                                                                                                                               ✕                                                                                                                                                                                                                                                                           ✍




                                                                                                                                                                                                   
                ✺                                                                                                                                   ☛                                                                       ✖                                           ✁                                                                                           ✂                                                                                                                                                                                                                                               ✠                                                                                   ✹                                                                                                                                                                                                                                                   ✁                                                                                           ☛                                                                                                                                           ✄                                                                                                                   ✑                                                                                                                                                                                                       ✆                                                                                           ✠                                                                                                   ☛                                                                                                                                                                                   ✸                                                                                                                                                       ✼                                                                       ✽                                                                                                                                   ✟                                                                                           ✂                                                                                           ☛                                                                                                   ✑                                                                                           ✄                                                       ✆                                                                                                   ✔                                                                                                                                                                                                   ✁                                                                                                                                                                                                                                       ✹                                                                   ✎                                                                                                                                                                                                       ✂                                                                                   ✠                                                                                                                                                           ✁                                                                                                                                                                                   ✆                                                                                                                                                                                                   ☛                                                                                                                                                                                                   ✠                                                                                           ✂                                                                       ✠                                                                                                                                       ✁                                                                           ✞                                                                           ✁                                                                       ✂                                                               ✺                                                                                                                                                                   ✠                                                                                                                                                               ✂                                                                                                                                               ✎                                                                           ✖                                                                                                                   ✆                                                                                               ✁                                                                           ✠                                                                               ☛                                                   ✎                                                                       ✄                                                       ✁                                                                                                                       ✟                                                                       ✂



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            ✌                                                                                                                                                                                                                                                                                                                                                                                           ✒                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                       ✌




                                                                                            ✏                                                                                                                                                                                                                                                                                                                                                                       ✍                                                                                               ✏                                                                                                                                                                                                                                                                                   ✍                                                                                                                                                                                                                                                                           ✿                                                                                                                               ✏                                                                                                                                                                                                                       ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✏                                               ✍                                                                                                                                                                       ✍                                                                                                                                                                                                                                                                                               ✏                               ✍                                                                                                                                                                                                                                                           ✿                                                                                                                                                                                                                                                                                                                                                                       ✏                                                                                                                                                                           ❃                                                                                   ✏                                                                                                                                                                                                                                                                       ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✏                                                                                                                                           ❄                                                                                                                               ✕




                                                                                                                                                                                                           
                ✺                                                                           ✁                                                                                                   ✁                                                                                                                                                                                                               ✠                                                                                                           ✹                                                                                                                                                                                                       ✆                                                                                                       ☛                                                                                                                                   ☛                                                                                                                                   ✂                                                                   ✄                                                       ✁                                                                                                                                                                                                                                       ✖                                   ✁                                                                               ✂                                                                                           ✄                                                                   ✖                                           ❀                                                                                                   ✂                                                                                   ✠                                                                                                                                                                                                                                                                                   ✆                                                                                           ✄                                                                       ✄                                               ✁                                                                                                                                                                                                                       ✖                                               ❀                                                                                                                                                                                                               ✁                                                                                   ☛                                                                                                                                           ✄                                                                                                                                                                                           ✁                                                                                                                                                                                                                                           ✠                                                                                                                       ✂                                                                               ✖                                       ✖                                                                                   ✂                                                                                                                                                                                               ✆                                                                       ✎                                                                                           ✠                                                                                                                                                                           ✠                                                                           ✹                                                                                           ✁                                                               ✠                                                                                                               ✄                                                                           ✁                                                       ☛                                                                                                                               ✠                                                                                                                                       ✟                                                       ✁                                                                                                                                                                   ✎                                                                                                                       ✎                                                                           ✄                                           ✁                                                                                                                                       ✞                                                                                   ✟                                                       ✁                                                                                                                                                                                               ✠                                                       ✂                                                           ✠                                                                                       ✁



                                                                                                                                                                                                                                                                                    ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                               ✌                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                       ✒




                                                                                                                                                                                                                                                                                                                                                                ✏                                                                                                                                                                                                                                                                                               ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✍                                                                                                           ✿                                                                                                                                                                                                                                                                                                                                                                   ✿                                                                                                                                                                                                                                                                                                               ✍                                                                                                                                                                                                                                                   ✿                                                                                                                                   ✏                               ✕                                                                                                                                                                       ✍                                                                                                               ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✿                                                           ✿                                                                                                                                                                                                                                                                                                                                                                       ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✏                                                                                                                                                                       ✏                                                                                                                                                                                                                                                                                                                                                       ☞                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ❃                                                       ✏                                                                                                                                                                                                       ✿




                                                                                                                                                                                                         
    ✞                                                       ✁                                                                           ✂                                                                                               ✺                                                                                                                                                                                                   ✟                                                                                                   ✂                                                                                           ☛                                                                                                               ✂                                                                                           ✖                                   ☛                                                                           ✆                                                                                                                                                                                                                               ✁                                                                                                       ✁                                                                                               ✠                                                                                                                                       ✄                                                       ✁                                                                                                   ✺                                                                                                                                                                                   ✠                                                                                                                                                                               ✁                                                                                                                                                                                                                                                                   ✟                                                                                       ✂                                                                                                                                       ✝                                                                                                                                                                                                                           ✸                                                                                                                                                       ✼                                                               ✽                                                                                                                                                                                               ☛                                                                                                                                                                               ✆                                                                           ✠                                                                               ☛                                                                                                                                                                                                       ✁                                                                                   ✄                                                                                           ✠                                                                                       ✹                                                                                                                                       ✠                                                                                                                                                       ✎                                                                       ✄                                                           ✄                                                                       ✠                                                                                       ✹                                                                                           ✂                                                               ✠                                                                       ❀                                                                                       ✁                                                       ✠                                                                                                                           ✁                                                               ✄                                                                                       ✂                                                                                   ✠                                                                                   ✺                                                                                                                           ✁                                                                               ✠                                                                                                                                                                                                       ✆                                                                       ☛                                                                                                   ☛                                                       ✝                                                                                           ✟                                                                       ✁                                                       ☛                                   ✁                                                                               ✂                   ✄                                       ✁



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        ✌                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                       ✌                                                                                                                                                               ✌




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            ✕                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✏                                                                                                                           ✍                                                                                                                                                                   ✍                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✏                               ☞                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✏                                                                                                                                                       ✿                                                                                                                                                                                                                                                                                                               ✏                               ✍                                                                                                                                                                                                                                       ✏                                                                                                                                                                                                                                       ✏                                                                                           ✿                                                                                                                                                                                                                                                                               ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✿




                                                                                                                                      Ͳ           
                    ✎                                               ✠                                                                                           ✂                                                                                           ✖                               ✖                                               ✆                                                                                                       ✗                                                                                                                               ✂                                                                                                                                                                                               ✖                                       ✁                                                                                                                                       ✎                                                                                                           ✠                                                                                                                                                                               ✁                                                                                                       ✄                                                                                                                                                                                                                   ✼                                                                                                                                       ✹                                                                                   ✄                                                       ✂                                                                           ✠                                                                                                                                                               ☛                                                                               ✆                                                                                   ✄                                                                                                                                                                                           ✆                                                                               ✠                                                                                                                                                   ✄                                                               ✂                                                                                                                                                                                                                       ☛                                                                                                           ✂                                                                                                                                                                                                                               ✆                                                                                   ✄                                                                                                                                                                   ✠                                                                                           ✹                                                                                                                                                                                   ✆                                                                                                                                                                                                                       ✸                                                                                                                                   ❆



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✒




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                ✕                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✍                                                                                                                                                                                                                                                                                                               ❅                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✿                                                                                                                                                                                                                                                                                                                           ✿                                                                           ✿                                                                                                                                                                                                       ✍                                                                                   ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✓                                                                                                                                                                                                                                                                                                                                                       ❇                                                                                                                                   ❈                                                                           ❉                                                                       ❉




        
               Ͳ                                                                                                                            
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        ❍


            ✙                                               ✚                                                                               ✛                                                                                                   ✜                                                                                                                                                   ✙                                                                                                       ✢                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ●                                                                                           ✷                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✷                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✷                                                                                                                                                                                                                                                                                       ✷                                                                                                                                                                                   ●




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        ❊                                                                                                                                                       ✩                                                       ✭                                                                           ✭                                                           ✩                                                               ✤                                                                                           ❋                                                                                                                                                                                                                                                                                                                               ✱                                                                                       ✧                                                                   ✯                                                                           ✦                                                                                                                               ✵                                                                                                                                                                                                       ✯                                                           ✱                                                                                       ✪                                                                                                                                       ✦                                                                                               ✤                                                                                   ✥                                                           ★                                                                                   ✥                                                               ✩                                                                                                                                               ✤                                                                                                                                                                                                                                                                           ✧                                                                                                                                                                               ★                                                                           ✰                                       ★                                                                           ✧                                                                   ✩                               ✦                                                                                       ✭                                                                                                           ★                                                                               ✤                                                                                   ✲                                                                                                               ■                                                                                                                                           ★                                                                   ❋                                                                               ✦                                                                               ✭




                                                              
                    ✸                                                                                       ✂                                                                                               ✠                                                                                                   ✂                                                                                       ✹                                                                                               ✁                                                                                                   ✺                                                                                                                                               ✁                                                                                               ✠                                                                                                                                                                                                                                                                                                           ✁                                                                               ☛                                                                               ✑                                                                                                           ✆                                                                                   ✠                                                                                                           ☛                                                               ✁                                                                                           ✘



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            ✌




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        ✻




        
                                                                                                                                                                                                              
                    ✸                                                                                       ✼                                                                                       ✽                                                                                                                                                                           ✂                                                                                                                                                                       ✡                                                                                       ✠                                                                                               ✆                                                                                                   ✗                                                                                                                               ✖                                           ✁                                                                                                                                                                               ✹                                                                                                   ✁                                                                                               ☛                                                                                                                                                                   ✟                                                                                                   ✂                                                                                                                                                                                                                                       ✟                                                                                       ✁                                                                                                                               ☛                                                           ✁                                                                               ✖                                           ✁                                                                                                                                                                                                                       ✁                                                                                                                                                                                                                                                                                                                   ✆                                                                                                                                                                       ✎                                                                                           ✺                                                                                                                                       ✁                                                                       ✠                                                                                                                                               ✂                                                                                                                                                                   ✆                                                                                           ✠                                                                                                                                                                           ✆                                                                                       ✄                                                                                                                                       ✟                                                               ✄                                                                       ✁                                                               ✁                                                                                                                       ✑                                                                               ✂                                                               ❀                                                               ✺                                                                                                   ✁                                                                           ✠                                                                                                       ☛                                                                                                                                   ✆                                                                                                                                                       ✆                                                                                                                               ✂                                                                       ✖                                                                                                                                           ✄                                                       ✆                                                                                                                   ✁                                                                   ☛                                               ☛                                                                                   ✆                                                                               ✠                                                                       ✂                                                       ✖                                                       ✼                                                                           ✂                                                                                                                                       ✠



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        ✌                                                                                                                                                                                                                                               ✌                                                                                               ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌




                                                                                                                                                                                                                                                                                                                                                                                                                                                                        ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✍                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✿                                                                                                                                                                                                                       ✍                                                                                                                                           ✍                                                                                                                                                                                           ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✏                                                                                                                                                                                                                                                           ☞                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ❏                                                                                                                       ✿                                                                                                                                                                                                           ❑                                                                                                                                                                                                   ☞                                                                                                                                                                                                                                   ✏                                                                                                                                                                                                                                                                                                                                                                                                                       ☞                                   ☞                               ✏




                                                                                                                                                                                                          
    ☎                           ✎                                                                       ✖                                                           ❀                                                                                   ✝                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✆                                                                                           ✎                                                                                                               ✖                                                                                                                                                       ✠                                                                                                                   ✆                                                                                                                                                                                                                                                                                                   ✁                                                                                                                                   ✖                               ✆                                                                                                                                                       ✂                                                                                                                                               ✁                                                                                                                                                                                                                                                                           ✞                                                                                                       ✟                                                                                           ✁                                                                                   ☛                                                                       ✁                                                                                                                                   ✑                                                                                       ✂                                                                               ❀                                                                       ✺                                                                                                                                       ✁                                                                                       ✠                                                                                                                               ☛                                                                                                           ✗                                                                                                                   ✁                                                                               ✄                                                               ✁                                                                                                                   ✺                                                                                                                           ✂                                                                                                                                                   ✁                                                                                                           ✂                                                                                                                                                                                                                   ✟                                                                       ✁                                                                                           ✔                                                           ✁                                                                           ✄                                   ❀                                                                                                                                                               ✁                                                               ✹                                                                                           ✠                                                           ✠                                                                                                                   ✠                                                                                   ✹                                                                                               ✆                                                                                                                                                                                                   ✟                                                                   ✁                                                                                                       ✑                                                                       ✄                                   ✆                                                       ❂                                           ✁                                                                                                                                                               ✂                                                   ✠



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                   ✒                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌




                                                                                                                                                                                                                                                                                                                                                ❉                                                                                               ▲                                                                                               ▲                                                                                               ▼                                                                                                                                       ✿                                                                                                                                                                                                                                                                                                                                   ✍                                                                                                                                                                                                                                                                                                                                                                                                                                               ✕                                                                                                                                                                                                                                                                                                                                                   ✿                                                                                                                                                                                                                                                                                                   ✍                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✍                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✕                                                                                                                                                                                                           ✏                                                                                                                                                                       ✏                                                                                                                                                                                                                                                                                                           ☞                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✿                                                                                                                                                                                           ✍




                                                                                                                                                                                                                
                                    ✟                                                                       ✁                                                                                                                                                   ✄                                                               ✁                                                                                           ✖                                               ✂                                                                                                                                                       ✁                                                                                                                                                                                                                                                                                                                                           ✆                                                                                                                                                                               ✎                                                                                       ✺                                                                                                                                                               ✁                                                                                           ✠                                                                                                                                                           ✂                                                                                                                                                                                   ✆                                                                                       ✠                                                                                                                                   ✗                                                                                                   ✂                                                                               ☛                                                                                                           ✺                                                                                                                                                                                       ☛                                                                                                                   ✂                                                                                               ✡                                                                           ✁                                                                                               ✠                                                                                   ✖                                   ❀                                                                                                                       ☛                                                                   ✟                                                                                                                           ✑                                                                           ✑                                                                           ✁                                                                                                                                                                                                                                                                                                                   ✂                                                                                                                                               ✡                                                                                                       ✗                                                                                                                                                                                                   ✟                                                                                                                                                                   ✟                                                                               ✁                                                                                                                                           ✆                                                                                                                                               ✟                                                                       ✁                                                                                       ✟                                                                           ✆                                                               ✺                                                                                                           ✁                                                                                           ✆                                                                                                                                                                                                                                                                                   ✁                                                                                                                                           ✆                                                                       ✄                                                                               ☛                                                                                                   ✆                                                       ✄                                               ✂                                                           ✹                                                           ✁                                                                               ✂                                       ✖                               ✆                               ✠                                       ✹



    ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                           ✌                                                                                                                                                                                                                                                   ✌                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            ✍                                                                                                                                                       ✍                                                                                                                                                                                                               ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✏                                                                                                                                                                                                                                                                                                   ✍                                                                                                                           ✕                                                                                                                                                                           ✿                                                                                                                                                                                                                                                                       ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ☞                                               ☞                                               ✏                               ✿                                                                                                                                                           ☞




                                                                                                                                                                                           
                    ✗                                                                                                                                                                       ✟                                                                                                                                                                                                                       ✟                                                                                                           ✁                                                                                                                                   ✑                                                                                               ✄                                                               ✁                                                                                       ✔                                                                                                                                       ✆                                                                                           ✎                                                                                       ☛                                                                                                                           ✑                                                                                                       ✄                                                       ✆                                                                               ❂                                                       ✁                                                                                                                                                                                                                                                                                                                                                           ✖                                           ✁                                                                       ☛                                                                                                   ✂                                                                                   ✠                                                                                                                                                                                                                                                                                                   ✆                                                                                       ✎                                                                                                       ✖                                                                                                                                                                   ✠                                                                                               ✆                                                                                                                                                                               ☛                                                               ✎                                                                                                                                                               ☛                                                           ✁                                                                                                                                                                               ✎                                                                                               ✁                                                                               ✠                                                                                                                                   ✖                                   ❀                                                                                                                                                                                               ✁                                                                                                                                                           ✄                                                       ✂                                                                                                                           ✁                                                                                                                                                                                                           ✸                                                                                                                   ✼                                           ✽                                                                                                                                                               ✆                                                                       ✎                                                               ✠                                                                                                                                                                                                                                           ✟                                                                           ✁                                                                                                                                                                               ✖                           ✁                                                                   ☛                                                                                                                                       ✆                                                       ✄                                                                                                                       ✟                                                       ✁



                                                                                                            ✌                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                       ✒                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌




                                                                                        ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✿                                                                                                                                                               ☞                                           ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✍                                                                                                                           ✿                                                                                                                                                                                                                                                                                                           ✍                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✕                                                                                                                                                                                                                                   ✾                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✕                                                                                                                                                                                                                                                                                                                                                                                       ✿                                                                                                                       ✍                                                                                                                                                                                                                                                                                                                                                                                                                                       ☞                                                                                                                                                                                                                                           ✍                                                                                                                                                                                                                                                                                                                                               ☞                                                   ✏                                                                                                                                                                                                                   ☞




                                                                                                                                                                                                             
                    ✑                                               ✄                                               ✁                                                                                               ✔                                                                                                                                   ✆                                                                                                   ✎                                                                                               ☛                                                                                                                       ✂                                                                                           ✠                                                                                                                                                                                                                                   ☛                                                                                               ✎                                                                                                                                                                           ☛                                                                               ✁                                                                                                                                                                                               ✎                                                                                           ✁                                                                                       ✠                                                                                                                                                                                   ✺                                                                                                                                                   ✆                                                                       ✠                                                                                                                                               ✟                                                                                   ☛                                                                           ✝                                                                                                                                                                           ✎                                                                                                                                                                                               ✎                                                                                               ✠                                                                                                                                           ✆                                                                               ✄                                                                                                                       ✎                                                                                       ✠                                                                       ✂                                                                                                                                       ✁                                                                                   ✖                                       ❀                                                                                                                                                                           ✟                                                                                           ✁                                                                                                       ✆                                                                               ✠                                                                               ✁                                                                           ☛                                                                                                                                       ✆                                                                                   ✄                                                                                                                           ✟                                                                           ✂                                                                                                                                           ✺                                                                                       ✆                                                                   ✠                                                                                                                       ✟                                                                                                   ✗                                                                                       ✁                                                                               ✄                                                   ✁                                                                                                           ✺                                                                                                                                               ☛                                                       ✑                                                                   ✖                                   ✂                                                                                                                               ✁                                                                                                                                                                                       ✸                                                                                       ✼                                               ✽                                                                       ✟                                       ✂                   ☛



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            ✌                                                                                                                                                                                                                                                                                                                                                                                                               ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✒




                                                                                                                                                                                                                                                                                                        ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✍                                                                                                                                                                                                                                                                                                       ✕                                                                                                                                                                                                                                                                               ✾                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✕                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ☞                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ☞                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✏                                                                                                                                                                                                                                                               ✿                                                                                                                               ✍




                                                                                                                                                                                                      
                                                ✖                                   ✁                                                                                       ✂                                                                                           ✄                                                                                                                                                                                                               ✆                                                                                                                                                                                   ✎                                                                                                   ✺                                                                                                                                               ✁                                                                                           ✠                                                                                                                                                               ✂                                                                                                                                                                                                   ✆                                                                                                   ✠                                                                                                                                           ✄                                                   ✁                                                                                                                                                       ✁                                                                           ✠                                                                                                                                                                                                   ✆                                                                       ✠                                                                                                                                   ✑                                                                                       ✆                                                                                       ✖                                                                                                                                                                                               ✁                                                                                           ☛                                                                                                                       ✂                                                                       ✠                                                                                                                                                                                                                       ✗                                                                                                                                                           ✖                                   ✖                                                                           ✄                                           ✁                                                                                               ✔                                                                                                           ✁                                                                               ✗                                                                                                                                                                                                                                               ☛                                                                                               ✑                                                                       ✄                                                               ✂                                                                                                                                                                                                                                                                                           ✁                                                                   ☛                                                                                                               ✆                                                                                                                       ✁                                                               ✠                                                       ☛                                                   ✎                                                                       ✄                                           ✁                                                                                                                                           ✟                                                                           ✂                                                                                                                                                                   ✂                                                                   ✖                       ✖                                                                                                                                           ✆                                                                                                                                           ✎                                                           ✺                                                                                                           ✁                                                           ✠                                                                                                   ☛                                                                   ✂                                       ✄                           ✁



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        ✌                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✌                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✌




                        ✿                                                                                                                                                                                                                                                                                                                                                               ✍                                                                                                                                                                                                   ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✏                                   ✿                                                                                   ✏                                                                                                                                                                                                                                                                                                                                                                                                                       ✍                                                                                                                                                                                                                                               ✏                                                                                                                                                                                                                                                                                                                                                                           ✏                                                                                                                                                                                                                                                                                       ✏                                                                                                                                                                                                                                                                                                                                                                               ✿                                                                                                                               ✏                       ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✍                                                                                                                                           ✿




                                                                             
                    ✑                                                   ✄                                               ✆                                                                                                   ✑                                                                                                   ✁                                                                                       ✄                                                                       ✖                                           ❀                                                                                                                               ☛                                                                                                                                   ✆                                                                                                   ✄                                                                   ✁                                                                                                                                                                                                                           ✂                                                                                                       ✠                                                                                                                                                                                                                                       ✄                                                           ✁                                                                                                                                                               ✄                                                                                                   ✁                                                                       ✔                                                                               ✂                                                                                                                                                               ✖                                   ✁



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✒




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        ✍                                                                                                                                                                                                                                                                                                                       ✍                                                                                                                                                                                                                                                                                                                                                                                                                   ✏                                                                                                                                                                                                                                                                                           ✕




        
               Ͳ                                                                                                      
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        ❍                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ❍                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ❍


            ✙                                                   ✚                                                                               ✛                                                                                                   ✜                                                                                                                                               ✜                                                                                                           ✢                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✷                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✷                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✷                                                                                                                                                                                                                                                                                                                                           ✷




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            ◆                                                               ★                                                                                                   ✯                                                                           ❖                                                                                                                                                                                                                                                                                                                               ✣                                                                                                                                                                                                      ✩                                           ✲                                                                                   ✦                                                                                                   ✤                                                                                                   ✯                                                                   ✦                                                                                                                                                                                                                                                                           ✧                                                                                   ✵                                                                                                       ✩                                       ✭                                                                       ✬                                                                                                                                                                                       ✭                                                                   ★                                                                                           ✰                                                                                                                                                                                                                                                                               ✣                                                                               ◗                                                                                                   ✱                                                                                   ✩                                       ✬                                                                               ✪                                                                                                                   ✦                                                                                               ✤                                                                                   ✥




                                                              
                        ✸                                                                                       ✂                                                                                               ✠                                                                                                   ✂                                                                                       ✹                                                                                           ✁                                                                                                   ✺                                                                                                                                                   ✁                                                                                               ✠                                                                                                                                                                                                                                                                                                           ✁                                                                               ☛                                                                               ✑                                                                                                           ✆                                                                               ✠                                                                                                               ☛                                                               ✁                                                                                           ✘



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                ✌




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            ✻




        
                                                                                                                                                                                                        
                        ❆                                                   ✂                                                                           ☛                                                                       ✁                                                                                                                                                                                                                                               ✆                                                                                           ✠                                                                                                                                           ✂                                                                                                                                                                                               ✆                                                                                               ✄                                                                                   ✺                                                                                                                       ✂                                                                                                   ✖                                                                                               ☛                                                                       ✎                                                                                                                                                                               ✺                                                                                                                                                                                           ☛                                                       ☛                                                                                                               ✆                                                                                   ✠                                                                                                                                                                                                                                   ✼                                                                                                                                                                                                                                                                                                                                                                                   ✂                                                                                           ✑                                                                                           ✑                                                                       ✄                                                                       ✆                                                                               ✔                                                                                       ✁                                                                                                                                                                                                                                                       ✟                                                                                       ✂                                                                                                                                                                                                                                   ✟                                                                                       ✁                                                                               ☛                                                       ✁                                                                                                               ✑                                                                                                                       ✁                                                                                                                                           ✁                                                                           ☛                                                                                       ✆                                                                                                                                               ✁                                                                                                                                           ✎                                                                                       ✑                                                                       ✺                                                                                                   ✁                                                                       ✠                                                                                                                                                                                                       ✆                                                                                   ✎                                                                           ✖                                                                                                                                                                                                                   ✁                                                                                                                                                                                                       ☛                                                                                                               ✂                                                       ✄                                                                                                   ✁



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        ✌                                                                                                                                                                                                                       ✌                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✌




                                                                                                                                                                                                                                                                                                                            ✍                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ☞                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✕                                                                                                                                                                                                                                           ✏                                                                                                                                                                       ✏                                                                                                                                                                                                                                                   ❅                                                                                                                                                                                                       ❇                                                                                           ❘                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✍                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✏                                                                                                       ✿                                                                                                                                                                                                                                                                                                                       ☞                                                                                                                                   ✾                                                                                                                                                   ✏                                                                                                                                                                                                                                                                                                                                                                                                               ✿                                                                                                                                                                                                                                                                   ✍                                                                                                       ✕                                                                                                                                                                           ✍                                                                   ✏                                                                                           ✿                                                                                                                                                   ✍                                                                                                                   ✍




                                                                                                                                                                                                    
                                                                        ✁                                                                                                                                                           ✂                                                                                           ✎                                                                                                   ☛                                                                               ✁                                                                                                                                                                                           ✟                                                                                                   ✁                                                                                                                                           ✂                                                                                                                                                                                           ✺                                                                                                                                                                                               ✠                                                                                                                                           ☛                                                                                                                               ✄                                                       ✂                                                                                                                                                                                                   ✔                                                               ✁                                                                                                                                                                                               ✆                                                                                   ☛                                                                                                                                                           ✆                                                                                                                                                                                   ☛                                                                               ✂                                                                           ✖                                               ✁                                                                                                                                           ✗                                                                                                               ✆                                                                                       ✎                                                                                           ✖                                                                                                                                                                                                                                           ✁                                                                                                               ✟                                                                                                                                   ✹                                                                           ✟                                                                                           ✁                                                                                       ✄                                                                                                                                       ✟                                                                   ✂                                                                                   ✠                                                                                                       ☛                                                                                                                                       ✄                                                   ✂                                                           ✑                                                                                                   ✔                                                   ✂                                                                           ✖                                   ✎                                                                   ✁                                                                                       ✆                                                                                                                                                                                                                   ✁                                                               ✺                                                                                                                                                                               ✞                                                                                   ✟                                                                           ✁                                                                                                                                                                                       ✁                                                                   ✺                                                                                                                   ☛                                                                       ✗                                                                                       ✁                                                           ✄                                       ✁



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                           ✒                                                                                                                                                                                                                                                                                                                                               ✌




                        ✕                                                                                                                               ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✍                                                                                                                                                                                                                                           ✏                                                                                                                                                       ✏                                                                                                                                                                                                                                                                                                                                                                               ✏                                                                                                                                                                                                                                                   ✿                                                                                                                                                                                                                                                                                                                                                                                                           ☞                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✍                                                                                                                       ✕                                                                                                                                                                                                                                                                                       ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ☞                                                           ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✏




                                                                                                                                                                                                      
                        ☛                                                                           ✄                                                                           ✂                                                                                           ✑                                                                                                       ✑                                                                                               ✁                                                                                                                                                                                                                                   ✂                                                                                           ✠                                                                                                                                                                                                                                                                                                                                                                                       ✗                                                                                                                                                   ✂                                                                                               ☛                                                                                                           ✠                                                                                       ✆                                                                                                                                                                                                   ✑                                                                                   ✆                                                                                       ☛                                                                           ☛                                                                                                                                                                           ✖                                               ✁                                                                                                                                                                                   ✆                                                                                                                                   ✆                                                                                                                                                                                                                                                   ✂                                                                                                           ✠                                                                                                                                       ✄                                                           ✁                                                                                                                                                           ✁                                                                                                               ✑                                                                                                                                               ☛                                                                                                                                                                                   ✠                                                                                                                                                                               ✎                                                                                                                                   ✎                                                                   ✄                                                               ✁                                                                                               ✗                                                                                                                           ✟                                                                               ✁                                                               ✠                                                                                                   ☛                                       ✎                                                                                                                                       ✟                                                                                                                                                                               ✁                                                           ✺                                                                                                           ☛                                                                               ✂                                                                           ✄                                               ✁                                                                                                                                                                                                                       ☛                                                                                                           ✂                                                                       ✄                                                                                                                   ✁                                                                                                                                                               ✸                                                                                                       ✼                                                           ✽                                                                       ✗                                                                               ✖           ✖



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                           ✒                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌




                                            ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✍                                                                                                                                                                                                                                                                                                                                           ✍                                                                                                                                                       ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✏                                       ✕                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✕                                                                                                                                                                                                                                           ✏                                                                                                                                                                                                                                                                                                                   ✿                                                                                                                                                   ✏                                                                                                                                                                                                                                                                                                                               ❘                                                                                                                                                                               ☞                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✿                                                                                                                                           ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✍                                                                       ✏                                                                                           ✿                                                                                                                                                                   ✍                                                                                                                                                   ✍                                                                                                                                                                                                                                                                                                                                                                                                   ✏




                                                                                                                         
                        ☛                   ✁                                                                               ✁                                                                                           ✡                                                                                                                                   ✂                                                                                           ✠                                                                                                                                               ✂                                                                                       ✑                                                                                                   ✑                                                                                               ✄                                                               ✆                                                                                                               ✔                                                                       ✁                                                                                                                                                                                                                                   ☛                                                                                                                                                       ✄                                                       ✂                                                                                           ✑                                                                                                                                   ✺                                                                                                                                       ✁                                                                                       ✄                                                                                                           ✟                                                                                           ✂                                                                                   ✠                                                                                                                                                                                           ✂                                                                               ✠                                                                                                                                                                                                                                   ✆                                                                                                                                                                                                                                                   ✂                                                                                                                       ✠                                                                                                                       ✂                                                                                                       ✄                                                       ✁                                                                                                                                                           ✁                                                                                                                       ✑



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✌                                                                       ✒




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        ✍                                                                                                                                                                                                                                   ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✍                                                                                                                                                                                                                                       ✕                                                                                                                                                                                                                               ✏                                                                                                                                                                                                                                                                                                                                                                                                                               ✿                                                                                                                                               ✏




        
        
                                                                                                   
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            ❍


                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        ✷                                                                                                                                                                                                                                                                                                                                                                                                                   ✷                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✷                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✷
                ❙                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ❯                                                                                                                                                                                                                                                                                                                                                                                                               ❱                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ❙




                                                                            ✦                                                                                                                                                                              ✩                                   ✦                                                                                           ❚                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✧                                                               ✩                                                                                                                                                       ✧                                                                                                                                                                                                                       ✱                                                                                                           ✲                                                                                       ✩                                           ✥                                                                                                                                                                                                                   ✦                                                                               ✯                                                                                                                                                               ✪                                                                                                                   ✪                                                                                                                                                   ✦                                                                                   ✤                                                                                       ✲                                                                                               ★                                                                                   ✥                                                                   ✩                                                                                                                                           ✤                                                                                           ✭




        
                                                                                                                                                                                                             
                        ✸                                                                                       ✼                                                                                       ✽                                                                                                                                                                                                                                                                           ✁                                                                                   ✖                                                                                               ✁                                                                                               ✔                                                                                       ✁                                                                                       ☛                                                                                                                                                                                       ✟                                                                           ✂                                                                                                                                                                                                                                                                               ✟                                                                                   ✁                                                                                                                                       ☛                                                                                                                           ✂                                                                                                                               ✁                                                                                                       ✺                                                                                                                   ✁                                                                               ✠                                                                                                                                                                                                                                       ✠                                                                                                                                                                                   ✟                                                                                                   ✁                                                                                                                                                                                                                           ✄                                                           ☛                                                                                                                                                                   ✑                                                                           ✂                                                                               ✄                                                       ✂                                                                           ✹                                                                               ✄                                                           ✂                                                                           ✑                                                                                       ✟                                                                                                                                                           ☛                                                                                                   ✺                                                                                                                                                       ☛                                                       ✖                           ✁                                                                                       ✂                                                                                                                                                                               ✠                                                                           ✹                                                                               ✂                                                                       ✠                                                                                                                                                                   ✄                                               ✁                                                                                                                                       ✎                                                                       ✁                                                       ☛                                                                                                               ☛                                                                                                                                           ✟                                                                           ✂                                                                                                                                                                                                                                                                                                                                   ✁                                                                                                                                               ✟                                                               ✂                                                       ✠                                                               ✹                                       ✁



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            ✌                                                                                                                                                                                                                                               ✌                                                                                                               ✌                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                               ✌                                                                                                                                                                                           ✌                                                                                                               ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✒                                   ✌




                                                                                                                                                                                                                                                                                                                                                                                    ✕                                                                                                                                                                                                                                       ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ☞                                               ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✏                                                                                                                                                                                                                                                   ✏                                                                                                                                                                                                                                                                                   ✍                                                                                   ✏                                                                                                                                                                                                                                                                                                                                   ✍                                                                                                                                                                                                               ✾                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✏                                                                                                                           ✕                                                                                                                                                           ✿                                                                                                                                                                                                                                                                                                                       ✍                                                                       ❘




                                                                                                                                                                                                
                                                    ✎                                                                           ✄                                                                   ✄                                                                           ✁                                                                                           ✠                                                                                                                                                                   ✖                                       ❀                                                                                                                           ☛                                                                                                                                               ✂                                                                                                                                       ✁                                                                                                               ☛                                                                                                                                                               ✟                                                                                                           ✂                                                                                                                                                                                                                                                                           ✸                                                                                                                                               ✼                                                                           ✽                                                                                                                                                       ✟                                                                               ✂                                                                               ☛                                                                                                   ✠                                                                                   ✆                                                                                                                                                                                                                                                           ✂                                                                                       ✡                                                                               ✁                                                                                               ✠                                                                                                                       ✂                                                                                                                                                                           ✁                                                                                                                                                                       ✎                                                                           ✂                                                                                                                                       ✁                                                                                                                                                                                           ✆                                                                                           ✄                                                               ✄                                               ✁                                                                                                                                                                                                               ✔                                                                                       ✁                                                                                               ✂                                                                                                                                                                                                                                   ✆                                                                       ✠                                                                                           ✂                                                                       ☛                                                                                                           ✟                                                                   ✁                                                                           ❀                                                                                                                                                                                       ☛                                                       ✂                                                                       ✹                                                                           ✄                                               ✁                                                                       ✁                                                                                                                                                                   ✗                                                                                                                                                                                   ✟                                                                                                                                                                                                                                                               ✆                                                                                                                                           ✟                               ✁



                                                                                                                                                                                                                                                                                                                                                                                                                                                            ✌                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                       ✌                                                                                                                                                                                                                                                               ✌                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                               ✌




                        ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ❲                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✍                                                                                                                                                                       ✾                                                                                                                                                                                                                                                                                                                                                                                                                                       ✿                                                                                                                                                                                                                                                                                                                                                       ✿                                                                                                           ✏                                                                                                                                                                                                                                                                                                               ✿                                                                                                       ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✍                                                               ✏                                                                                                                                                                                                                                                                                                                                                                                                                   ✍                                                                                                                                                                                                                           ✏                                                                                                                                                                   ❈                                                               ❉                                                                                                                                                       ☞                                                                                                                                                                           ❈                   ❳




                                                                                                                                                                                                               
                                                                            ✠                                                                                                                                                                                                                           ✠                                                                                                       ✹                                                                                           ☛                                                                   ✝                                                                                           ✂                                                                                               ✠                                                                                                                                                                                                                                                                                                                           ✟                                                                           ✁                                                                                       ✄                                                                   ✁                                                                                                                                               ✗                                                                                                                   ✂                                                                                           ☛                                                                                                               ✠                                                                               ✆                                                                                                                               ✆                                                                                               ✑                                                                           ✑                                                                                       ✆                                                                                       ✄                                                                                                               ✎                                                                                               ✠                                                                                                                                                                                               ❀                                                                                                                                                                               ✆                                                                                                                                           ✄                                           ✁                                                                                                   ✺                                                                                                                               ✁                                                                                                                                                                                           ✂                                                                                                                                           ✁                                                                                                                                                                                   ✟                                                                                   ✁                                                                                                           ✆                                                                                                                   ✟                                                                                                   ✁                                                                       ✄                                                                                                                                       ✗                                                                                                       ✆                                                                                                                                                                                                                                                                                                                       ✁                                                                                   ✄                                                   ✁                                                                                                                                       ✎                                                               ✁                                                           ☛                                                                                                                                                                                                           ✟                                                                           ✂                                                                                                                                                                                   ✟                                                                                                                       ☛                                                                                                                                   ✁                                                                                                                                                       ✟                                                               ✂                                               ✠                                               ✹                               ✁                                                                                       ✆



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✌                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                               ✌                                                                                                                                                                                                                                                                                               ✌                                                                                                                                                                                                                                               ✒                                   ❨                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                   ✌                                                                                                                                                                                                       ✌                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌




                        ☞       ✏                                                                                                                                   ✍                                                                                               ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✍                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✍                                                                               ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ❩                                                                                                                                                                                                                                                                                                                                   ✾                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✏                                                                                                                   ✕                                                                                                                                                                   ✿                                                                                                                                                                                                                                                                                               ✍




                                                                                                                                                                                      
                                                ✸                                                                                                                                               ✼                                                                                       ✽                                                                                                                                                                                                                                                                                                                       ☛                                                                       ✂                                                                                           ✹                                                                                           ✄                                                           ✁                                                                                           ✁                                                                                                                                                                                                                               ✗                                                                                                                                                                                                                                                   ✟                                                                                                                                                                                                                                                                                                                                                                       ✆                                                                                                                                                                                                                                       ✟                                                                       ✁                                                                                                                                                                                                                                                                                                                                                                                                                                           ✠                                                                                                                                                                                                                                   ✠                                                                                                   ✹                                                                           ☛                                                                                               ✂                                                                                           ✠                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✠                                                                                           ✆                                                                                                                                                                                       ✂                                                                                                                                                                                                   ✁                                                                   ✑                                                                                                                                                                                                                               ✟                                                                               ✂                                                                                                                                                                                                           ✆                                                               ✄                                               ✄                                       ✁                                                                                                                                                                                                               ✔                                                   ✁                                                                                           ✂                                                                                                                                                                                                                   ✆                                                                               ✠                                                                                                   ✗                                                                                                   ✂                                                                   ☛



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                               ✌                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                       ✌




                        ❲                                                                                                                                                                                                                                                                                                                                                                                                                                       ✍                                                                                               ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✍                                                                                                                                                                                                                                                                       ✏                                                                                                                                                                                                                                           ❈                                                                                               ❉                                                                                                                                                                                                               ☞                                                                                                                                                                                                                                                                                                                                                               ❈                                                                               ❳                                                                                                                                   ☞                                               ✏                                                                                                                                       ✍                                                                                               ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✍                                                                                                                   ✍                                                                               ✏                                       ✍                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✿                                                           ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✿                                                                                                                                                                                                                                                                                   ✿                                                                                                       ✏                                                                                                                                                                                                                                                   ✿                                                                                                                   ✏




                                                                                                                                                                                                         
                        ✠                                                   ✁                                                                                                                                                           ✁                                                                                               ☛                                                                       ☛                                                                           ✂                                                                                       ✄                                                                           ❀                                                                                                                                                                                                                       ✸                                                                                                                                                       ✼                                                                                           ✽                                                                                                                                           ✂                                                                                                                                                                                                                                                       ✁                                                                                                       ✑                                                                                                                                                   ✁                                                                                                                                                                                                                                                                           ✟                                                                               ✁                                                                                                               ✆                                                                                                                                                           ✟                                                                                       ✁                                                                                   ✄                                                                                                                                                                   ✗                                                                                                                           ✆                                                                                                                                                                                                                               ✠                                                                                                                                                                                                               ✠                                                                                   ✹                                                                                                                                                                                                           ✎                                                                                                                                                                                                                                       ✟                                                                                               ✁                                                                       ✄                                           ✁                                                                                                           ✗                                                                                                                       ✂                                                               ☛                                                                                                       ✠                                                                           ✆                                                                                                       ✆                                                                   ✑                                                               ✑                                                                               ✆                                                                   ✄                                                                               ✎                                                                               ✠                                                                                                                                   ❀                                                                                                                                               ✆                                                                                                           ✄                                                           ✁                                                                           ✺                                                                                                           ✁                                                                                                                                                                       ✂                                                                                                                       ✁                                                                                                                       ✟                                                                   ✁                                                       ✺                                                                               ✁



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            ✒                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                               ✌                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                   ✌                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                               ✌




                                                                                                                                                            ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✿                                                                               ✿                                                                                                                                                                                                                                                                                                                                                                                                                           ✍                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ☞                                                       ✏                                                                                                                               ✍                                                                                       ✏                                                                                                                                                                                                                                   ✕                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✏                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✍                                                                   ✏




                                                    Ͳ                                                       
                                                                            ✁                                                                                                                                                           ✂                                                                                           ✎                                                                                                   ☛                                                                               ✁                                                                                                                                                                                           ✟                                                                                                   ✁                                                                                                                                       ✄                                                                   ✁                                                                                                   ✖                                   ✂                                                                                                                                                   ✁                                                                                                                                                                                                                                       ☛                                                                           ✎                                                                                                                                                                                                                                           ✂                                                                       ✗                                                                                                                                   ✂                                                               ✄                                                                                                                                                   ☛                                                                                                       ✟                                                                                   ✂                                                                                                                                                                                                                       ✁                                                                                               ✠                                                                                                                                                                                   ✁



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                            ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ❨                                                                               ✒




                            ✕                                                                                                                               ✿                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ✍                                                                                                                                                                                                                                                                                                       ✕                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ✍                                                                                                                                                                                                                                                                                                                                                                   ✍                                                                                                                                                                                                                                                                                                                                       ✍                                                                                                                                                                       ✍




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        28
        
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       APPENDIX A
        

        
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      
                    ✠                                                               ✂                                                                                                                                                                       ✆                           ✠                                           ✗                                                   ✁                           ✗                                               ✆                           ✎                               ✖                                               ✖                                   ✡                           ✁                                                                                   ✠                       ✆                                                                   ✁                                                                       ✟                       ✂                                                                   ✟                       ✁                               ✼                                                                                                                                                   ✆                                                                                                   ✁                                   ✄                   ✁                                                ✆                               ✹                           ✠                                                           ✁                                                                                       ✟                       ✂                                                                                   ✟               ✁                           ✂                       ✺                                       ✆                       ✎                       ✠                                           ✆                                                                       ✺                       ✁                           ☛       ✑                           ✁                       ✠                                                           ❀                       ✟       ✁



                                                                                                                                                                                                                            ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                   ✌                                                                                       ✌                                                               ✌                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                ✌                                                                   ✌                                   ✌                                                                                                                                                                                                           ✌                                                           ✌                                                                                                                                                               ✌                                                       ✌




        ❘                                                                                                               ✍                                               ✍                                   ✏                                       ✏                                                                                                                                                                                                                                                                                       ✍                                                           ✏                                                                           ✏                                                                                                                                                                       ✍                                                                                                                                                                                                                           ❘               ❬                           ❇                               ✻                                                                           ☞               ☞           ✏               ✿                                                                                                    ✿                                                                                                               ✏               ❭                                           ✍                                                                                                                                                                                                                                                                                                                                                                                                       ☞                               ✏                                                                                                                                                                           ✕




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   
        ✂                               ✎                                                                                                                                                                                           ✄                   ✺                                                           ✗                                           ✂                           ☛                       ✠                           ✆                                                                   ☛                           ✎                                                                                                                       ✁                           ✠                                                                   ✆                                   ✄                                       ✂                                           ✟                           ✆                           ✄                   ✆               ✎                           ✹                   ✟                                                               ✆                           ✺                                               ✑                           ✖                   ✂                           ✠                                                   ✁                                       ✄                       ✁                ✔                                       ✁                           ✗                                                           ✂               ✠                                                                                           ✟                           ✂                                                                                               ✗                       ✂                       ☛                       ✑                           ✂                       ✄                                   ✆                                           ✂                               ✹               ✁               ✠                   ✁               ✄                   ✂                   ✖                       ✂                   ✠



                                                                                                                                        ✌                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                               ✌                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        ✌                                                                           ✌                                   ✌                                                                                                                                                                       ✌




                                                                                        ✍                                       ✏                                                       ☞                       ✏                                                                                                                                                                                                                                                                                                                                                       ☞               ☞                       ✏               ✿                       ✏                                                                                               ☞                                                                                                                                                                                                                                                                                                                           ✿                                                                                                                                           ✏                                                               ✿                                                                                                                                        ✏                                                                                                                                               ✍                                                                                                                                           ✏                                                                                                                                                                                                                                   ☞                                                                                                                                                                                                                               ✍




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                
                                                ✄                           ✆                                       ✂                                                                                               ✄                           ✁                           ✔                                   ✁                       ✗                                                           ✆                                                                               ✆                           ✺                                               ✑                           ✖                               ✂                               ✠                                                   ✁                               ✂                                                       ✄                           ✆                               ☛       ☛                                                                   ✼                                                                                       ❪           ☛                                           ✺                                                   ✑                   ✖                   ✁               ✺                                               ✁                           ✠                                                   ✠                                   ✹                                ✑                           ✂                           ✄                                   ✠                                   ✁                   ✄                           ☛



                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                ✌                                                                                                                                                                                    ✌                                                                                                           ✒




            ✕                                                                                                                                           ✍                                                                                                                                       ✏                                                                                                                               ☞                           ✿                                                                                                                                               ✏                                                                   ✿                                                                                           ✿                                                                                                                                   ❅                                                       ❇                   ❘                                                                                   ✏                                                                                                                                                                                                                                           ✏




        
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   
                                                    ✖           ☛                                       ✆                                                           ✗                                                       ✁                                           ✄           ✁                                                           ✎                                   ✁                       ☛                                                                   ✟                           ✂                                                                                   ✟                                   ✁                                                                       ✁                                       ✂                                           ✖               ✁                                                                                           ✆                           ✺                                       ✑                           ✖               ✂                   ✠                                                   ✁                                                                       ✁                   ✔                                   ✁                               ✗                                                                           ✠                                                                    ✠                               ✹                           ☛                                   ✂                       ✠                                                                       ✄               ✁                           ☛                       ✑                           ✆                       ✠                       ☛               ✁                       ☛                               ✑                   ✂                       ✄           ✂                               ✑           ✟                   ✄                   ✂                   ☛           ✁                                                   ✠                                               ✟                       ✁                                   ✂           ✎



                                                                                                                                                                                                                                                                                                                                                                                                                        ✌                               ✌                                                                               ✌                           ✌                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        ✌                                                                                                                           ✌




            ❇                                                                                                                                                                                                                                                                                                           ✾                                                                                                                                                                                                                                                                                                                                                   ✍                                                                                                       ✏                                                           ✍                                   ❫                                                                                                                               ✏                                               ✿                                                                           ✻                                                                           ✏                                                                                           ☞       ✏                                                   ✍                    ✏                                                                                                                                                               ✍                                                                                                                                                                                                                                                                                                                                                                                                                                                                   ✍                           ✏                                                                                                                                               ✍       ✏




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 
            ✄                   ✁                                   ✑                                           ✆                                           ✄                                                                                                   ✁                                   ✄                       ✁                               ✺                                           ✆                               ✔                       ✁                                                                   ✂                           ✠                                                                                               ✟                               ✂                                       ✝                                               ✠                                   ☛                                       ✁                   ✂                                               ✝                                           ✟                       ✁                                           ✎               ✖                   ✖                                                           ✆                           ✺                                       ✑                       ✖                               ✂                       ✠                                                       ✁                                                                ✁                               ✔                                   ✁                           ✗                                                                       ✁                                           ✂                                                                   ✂                                   ✟                           ✁                                                   ✂                       ☛                       ✂                           ✠                                                   ✠               ✠                               ✁               ❁                                                               ✁                                                           ✁               ✖                   ✁           ✔           ✁



                                                                                                                                                                                ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                       ✌                                                                                                                   ✌                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                ✌                       ✌                                                                                                                                                                                                                                                                                                                                                   ✒




                                                                                                                                                                                                                                ✕                                                                                                                                                                                                                                                           ✍                                                                                               ✍                                                                                                                                                                   ✏                                                                                                                                           ✍                                                                                                                       ☞                                                                                   ❫                                                                                                                                               ✏                                                           ✿                                                            ✻                                                                                               ✏                                                                               ✕                                                                                                                                                                   ✿                                                           ✍                                                                                                                                       ❇                                                                                                                   ❩                                                                   ✕                                                           ✏




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      
                            ✟                                                                   ☛                                           ✗                                                                           ✖               ✖                           ✑                       ✄                       ✆                       ✔                                                                   ✁                                           ✂                                                                                                                                       ✆                                   ✠                           ✂                       ✖                                       ✠                                           ✆                                       ✄                   ✺                                   ✂                                                   ✆                           ✠                                               ✠                           ✂                                                                   ✁                                                               ✁                       ✄                                               ✆                               ✄               ✺                                           ✂                                                                            ✟                               ✂                                                       ✗                                               ✖           ✖                   ✂                               ☛                   ☛                                           ☛                                                   ✟                           ✁                               ✄               ✁                   ✂                                                   ✁                       ✄                               ✆                           ✟                               ✂           ✔               ✁                       ✂                               ✺                                   ✆                   ✄           ✁



✌                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✌                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                           ✌                           ✌                                                                                                                                                                                                           ✌                            ✌                                                                               ✌                                                                                                                                                                                                                           ✌                           ✌                                                                                                                                                                                                       ✌




                                                                        ✏                                                                                                                   ✏                                                                                                                                                                               ✏               ✍                                                                                           ✍                               ✍                               ✏                   ✏                                                                                                                                           ✏                                   ☞                                                                                                                                                           ✏                                                                       ✏                                                                           ✕                                                                                                                                                       ☞                                                                                                                                                                                                                                                                                                                        ✏                                                                                                                       ✏                                                                                                                                                                                           ✍




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           
                                    ✆                                           ✺                                                               ✑                                   ✖                   ✁                                                           ✁                                   ✑                                                                                       ✎                           ✄               ✁



                                                                                                                                                                                                                                            ✌                                                                                                                           ✌                                                                                               ✒




            ✿                                                                                                                                                                                                                                                                                                                   ✏                   ✿




        
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      
                                                            ✂                                               ✖               ✖                                   ✆                                                                                                   ✟                       ✁                                   ✂                                                                   ✆                           ✔                   ✁                                               ✂                       ✄                       ✁                               ✠                                   ✆                                                               ✑                                   ✆               ☛                       ☛                                                                                   ✖       ✁                                                   ✟                       ✁                       ✠                                   ✗                       ✁                               ✗                                                           ✖               ✖                   ✗                                                       ☛                   ✟                                                       ✆                                                       ✠                                                ✖           ✎                                                                   ✁                               ✂                                   ☛                           ✁                               ✑                   ✂                       ✄                       ✂                                       ✁                                   ✄                   ✁                   ☛               ✑               ✆                       ✠                           ☛                       ✁                           ✆               ✠                                                   ✟                   ✁                               ✆                       ✑



                                                                                                                                                                                                                                            ✌                                                                                                                                                                                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                       ✌                                                                                                                                                                                                                                                                                                                                                                                   ✌                                                                                                                                                                                                                                                                                                                                                                                                                                        ✌                                                                                                                                                                                                                                                                                       ✌                                                   ✌                                                                                               ✒




            ❘           ☞                                                                                                                                                                           ☞                                                                                                                                                               ✕                                                                                                                                                                                                                                                                                                                                                                                                                               ✏               ✕                                                                                                                                                                                                                                                                                               ✏                                                                               ✏                                                                                                                                   ✏                                                   ✿                                                            ✍                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           ✏       ✿




        
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  
    ✞                                       ✟                                               ✂                               ✠                                               ✡                   ☛                                                   ✂                           ✠                                                                       ✄                       ✁                       ✹                           ✂                   ✄                                               ☛




                                                                                                                                                                                                                                                                                                            ✍                                                                                                                                                               ✍




        
                                                                                                                                                                                        
                                                        ✂                                           ✔




                                                                                                                                    ✏               ✍




        
        




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    29
        
                                                                                                                                                                                                          APPENDIX B


United States Agency for International Development (USAID – Afghanistan
Regulatory Compliance (Vetting and Procurement) Review of USAID Afghanistan Awards
RFP No. SOL-306-12-000020
Implementing Partner: Management Sciences for Health, Inc.
Award Number: 306-A-00-06-00522-00
Project:         Technical Support to the Central and Provincial Ministry of Public Health (Tech-Serve)
Review Date:     July 7, 2012

MSH Response to Final Report

Scope Area               1. Vetting and Mission Requirements
S. No.   Rating     Issue / Finding                                                           Recommendation                                    MSH Response
                    Vetting for the sub contract is not performed as per the mission          We recommend that management should vet           Vetting, per Mission Order 201.04, was not effective until 5/9/2011. The
                    order 201.04 requirement                                                  all the transaction exceeding USD 150,000         requirement was added to the Tech-Serve agreement through Modification #18
                                                                                              before awarding the contract as per the           dated 6/27/2011.
                    Mission Order 201.04 outlined that “every award or sub award              guidelines of the mission order. Further
                    (Non US party) exceeding threshold of USD 150,000 should be               Notice of Eligibility should also be obtained     Handicap International, which was issued as a fixed-price grant not contract, had
                    vetted against the given criteria”. After vetting eligibility notice is   from USAID.                                       a period of performance from 1 October 2008 to 30 April 2010. Therefore, this
                    issued to all sub awardees evidencing that they have been vetted                                                            grant was completed before the vetting requirement was put in place.
                    as per the guidelines of Mission Order.                                   Approving authority for each sub award must
                                                                                              ensure the same before signing.
                    During our discussion and review of the subcontracts, we noted
   1         H      that vetting has not been carried out for the following Sub               For the purpose of ensuring compliance, a
                    contracts:                                                                checklist of all the requirements should be
                                                                                              prepared, which should be filled at the time of
                        Recipient         Type of award            Sub        Amount in       award of each sub award.
                                                                  award         USD
                                                                 number
                        Handicap       Fixed Price Contract      FPTA-08-       220,000
                      International                                 01
                        (Non-US)


                    2 CFR 175 Award Term for Trafficking in Persons not included in           We recommend that the aforementioned              The Standard Provision “Trafficking in Persons (OCTOBER 2010)” was
                    award instruments for prime and sub awards                                provision should be included in the award         incorporated into MSH’s Cooperative Agreement through Mod #17 on
                                                                                              instruments of all the sub awards.                05/07/2011.
                    As per the requirements of Mandatory clauses, the following
   2         H
                    clause is to be included in the award instrument for prime and            Approving authority for each sub                  Three of the four sub-awards issued under Tech-Serve were issued prior to
                    sub awards:                                                               award must ensure such clause exist before        05/07/2011. Two of the four sub-awards were completed prior to 05/07/2012.
                                                                                              signing the award instrument.                     HPRO’s FPTA 10-01 had a period of performance that ended 06/15/2011. The
                    This provision is required in accordance with 2 CFR 175 Award                                                               guidance in AAPD 11-01 is that “All AOs must include the provision "Trafficking in

                                                                                                             30
                                                                                                                                                                                          APPENDIX B


        Term for Trafficking in Persons. AOs must include this provision in   For the purpose of ensuring compliance, a         Persons" in all new awards and must modify existing awards to include the
        all new awards. AOs must modify existing awards to include this       checklist of all the requirements should be       provision “Trafficking in Persons" at the earliest practicable opportunity”. There
        provision at the earliest practicable opportunity.                    prepared, which should be filled at the time of   was no “practicable opportunity” to modify this subaward before its completion.
                                                                              award of each sub award.
        While reviewing the award instruments for sub contracts, we                                                             MSH understands that the “Trafficking in Persons” Standard Provision should
        noted that the abovementioned provision has not been included                                                           have been incorporated into the HPRO FPTA 11-01 issued 12/23/2011.
        in all the award instruments for the sub awards.

        Mission order appendix F “Mandatory Clauses” III Restriction on       We recommend that Tech-Serve should                Vetting, per Mission Order 201.04, was put into effect on 05/09/2011. The
        Foreign Purchases not updated in sub award instruments                incorporate the updated requirements of           requirement was added to the Tech-Serve agreement through Modification #18
                                                                              mission order regarding the restrictions on       dated 06/27/2011.
        The mission order requirement, Appendix F: Mandatory clause III       foreign purchases in the agreements, and get
        the restrictions on foreign purchases from Cuba, Iran, Sudan,         it signed by the sub awardee.                     Three of the four sub-awards issued under Tech-Serve were issued prior to
        Burma and North Korea is updated in June 2008.                                                                          05/09/2011. Two of those had completion dates prior to 05/09/2011. The third
                                                                              Approving authority for each sub award must       had a completion date of 06/15/2011, before the issuance of Modification #18
        While reviewing the award instruments for sub awards, we noted        ensure such clause is updated in the award        to the Tech-Serve agreement.
3   H   that the abovementioned provision is not updated and Tech-            instrument.
        Serve is incorporating the old provision i.e. of February 2006 in                                                       MSH understands that the “Mandatory Clauses” III Restriction on Foreign
        the award instruments.                                                For the purpose of ensuring compliance, a         Purchases in Appendix F of Mission Order 201.04 should have been incorporated
                                                                                                                                into the HPRO FPTA 11-01 issued 12/23/2011.
                                                                              checklist of all the requirements should be
                                                                              prepared, which should be filled at the
                                                                              time of award of each sub award.



        Screening on UNSC 1267 as per the requirement of Mandatory            We recommend that management should               Prior to issuing a contract, subcontract, subagreement, grant, or purchase order,
        clauses is not carried out.                                           scan UNSC 1267 for the name of vendor and         it is MSH policy to screen all vendors against the following Global Watch Lists:
                                                                              also for the key personnel before awarding              • Office of Foreign Assets Control (OFAC) Specially Designated Nationals
        As per the Mission order requirement Appendix D ”The                  the sub contract.                                           and Blocked Persons List (SDN)
        Contractor also will verify that the individual or entity has not                                                             • Bureau Of Industry and Security (BIS)
        been designated by the United Nations Security (UNSC) sanctions       Further, screenshot of the list should be                        • Entity List
        committee established under UNSC Resolution 1267 (1999) (the          maintained in file.                                              • Denied Persons List
        "1267 Committee") [individuals and entities linked to                                                                                  • Unverified List
4   H
        the Taliban, Usama bin Laden, or the Al Qaida Organization]. To       For the purpose of ensuring compliance, a               • Excluded Parties List System (EPLS)
        determine whether there has been a published designation of an        checklist of all the requirements should be             • Department of State
        individual or entity by the 1267 Committee”                           prepared, which should be filled at the time of                  • Nonproliferation Sanctions
                                                                              award of each sub award.                                         • Debarred Parties List
        However, we have been informed by the management that UNSC                                                                    • FBI Wanted Fugitives (FBI)
        1267 is not screened at the time of awarding the contract.                                                                    • United Nation Sanction List (UNSL)
                                                                                                                                      • World Bank Ineligible Firms (WBNK)
                                                                                                                                      • Interpol

                                                                                             31
                                                                                                                                                                                          APPENDIX B




                                                                                                                                The requirements for UNSC 1267 are met by the screening against the United
                                                                                                                                nations Sanctions List.

                                                                                                                                Copies of all Clearance Verifications for subawards under Tech-Serve were made
                                                                                                                                available to the reviewers at their request.


Scope Area             2. Governance and Control Environment
S. No.   Rating   Issue / Finding                                                Recommendation                                 MSH Response
                   Organogram is not prepared and maintained                      We recommend that Tech-Serve should            As per MSH corporate standards, all projects create and maintain organograms
                                                                                  develop the organization chart according to   that are revised throughout the life of the project and activity implementation.
  1         M     On discussion, we were informed by the management that          the structure. The same should review and
                  Tech-Serve has not developed its organization chart.            updated periodically.                         The Tech-Serve organogram is on file in the MSH Afghanistan office, and has
                                                                                                                                been included in previous communications with the USAID Health Team in Kabul.
                  No formalised documented business continuity and               We recommend that a clear and
                  disaster recovery plan in place                                robust Business      Continuity  and           As per MSH corporate standards, all critical financial and project data and
                                                                                                                                documentation is stored on the MSH IT and computer network, and is backed up
                                                                                 Disaster Recovery plan should be               on a hard drive on a monthly basis. This monthly backup is stored at a separate
                  We have been informed by the management that there is no       developed.                                     location in case of fire or other catastrophic events.
                  formal business continuity or disaster recovery mechanism in   Amongst other strategies, the plan
  2         M                                                                                                                   All Accounting files (QuickBooks) are archived at the Headquarters and as a
                  place for key activities in the Procurement Department to      should     clearly   document     the
                                                                                 mechanism for maintaining back up and          worse case scenario can be reinstalled with no more than a partial month of
                  remaining functioning in case of unforeseen circumstances                                                     data requiring reentry. On a recurrent basis, the accounting team is required
                  including fires, terrorist attacks and public disorders.       subsequent retrieval of critical               toth backup the file onto external media (flash drive.) The default is after every
                                                                                 documents.                                     4 time opening the file.

                  Terms of Reference (ToRs) and minutes of the meetings for       We recommend that the ToRs for the
                  Management Committee are not documented                         management committee should be                The MSH Afghanistan Country Leadership Team (CLT) has an approved Terms of
                                                                                  documented. The ToRs should specify at        Reference that contains all of the recommended specifications. This team
                                                                                  least the following:                          includes the Project Directors for each of the USAID projects in the office, and
                  We noted that there are no TORs documented for the
                                                                                                                                the job descriptions for each of the Project Directors includes additional
                  management committee. Further minutes of the meetings for       ► Roles and responsibilities
                                                                                                                                specifications of their roles and responsibilities in the Country Leadership Team.
                  the management committee are not documented.
                                                                                  ►   Authorities
                                                                                  ►   Meeting frequency                         Each individual project, including Tech-Serve, maintains internal management
  3         M
                                                                                  ►   Members                                   team meetings. These meetings, and the roles and responsibilities of the
                                                                                  ►   Quorum                                    members, are specified in the job descriptions of each management position.
                                                                                  ►   Secretary
                                                                                  We further recommend that minutes of
                                                                                  the meetings held by the management
                                                                                  committee should be documented. The
                                                                                  same should also be circulated to the
                                                                                  members for approval.

                                                                                               32
                                                                                                                                                                                     APPENDIX B


                                                                                Additionally, the documented minutes
                                                                                should be filed for records and future
                                                                                reference.
                                                                                In the subsequent meetings, the action
                                                                                points from the previous meetings should
                                                                                be discussed and followed up for
                                                                                implementation.
                  The communication protocols are not disseminated among        We recommend that communication
                  employees                                                     protocols should be formally defined         Tech-Serve, as with all USAID funded projects implemented by MSH in
                                                                                                                             Afghanistan, had a Branding and Marking plan approved by USAID. This plan
                                                                                and documented by the senior
                  Communication protocols are defined in the form an                                                         was used by the senior management team as a reference document on a regular
                                                                                management in the form of an external        basis, and it provided specific regulation to communications protocols and
                  external communications policy which can serve as             communication policy.                        templates.
                  guidance for the staff when they communicate with the
  4         M     public or any other external stakeholder.                     Additionally, there should be a process in   The management team of the project conducted all external project
                                                                                place whereby all employees are informed     communications in accordance with this approved Branding and Marking Plan.
                  We were informed by the management that currently there       regarding the communication protocols        All members of the staff who had need of this document had access to it and
                  is no formally documented policy in place stating                                                          used it on a regular basis.
                                                                                to be followed. This should form part of
                  communication protocols to be followed whenever               the employee orientation at the time
                  employees are communicating with external persons on          when new employee joins the organization
                  behalf of Tech-Serve.                                         and also on a periodic basis.



Scope Area             3. Financial Management System, Funding and Fund Transfer Mechanism
S. No.   Rating   Issue / Finding                                                Recommendation                              MSH Response
                  Variance analysis of the budget is not performed              We recommend that in order to monitor
                                                                                                                             As per MSH corporate standards, practices and procedures, each project
                                                                                the actual expenditure against the
                  During our discussion we have been informed by the                                                         conducts monthly and quarterly budget reviews in coordination with the home
                                                                                budget a variance report should be
                  management that they prepares annual budget and                                                            office support teams and the Chief Financial Officer. This information is then
                                                                                prepared on monthly basis.
                  monthly cash forecast.                                                                                     used to support regular workplan and workplan budget discussions with USAID
                                                                                On quarterly basis the same is also          on a minimum of an annual basis.
                  However during our review we observed that the variance       discuss with the senior management and
  1         M     analysis is not performed nor any reasoning of the budget     should be forwarded to the home office       Each project provides information to the MSH Finance Team to support cash
                  is documented.                                                for the review.                              requests for the following month, and the comprehensive request for all projects
                                                                                                                             is sent to the home office. This request is detailed, and requests funds on an
                                                                                We also recommend that the reason for        individual project basis at the level of major chart of account line items. The
                                                                                variance should also be documented, a        MSH home office team reviews these cash forecasts on an individual monthly
                                                                                threshold can be determined and if there     basis, and over time.
                                                                                are any variances above the threshold the

                                                                                             33
                                                                                                                                                                           APPENDIX B


                                                                      reason should be documented.                Actual expenditure is reconciled against cash forecasts and budgets of each
                                                                                                                  individual project on a monthly basis, feeding into the budget reviews discussed
                                                                                                                  at the beginning of this response.


        Lack of dual controls over bank authorized signatory          We recommend that there should be at        As per MSH corporate standards, policies and practices, the MSH Afghanistan
                                                                      least three authorized bank signatories,    bank account has three approved signatories in Kabul. This includes the MSH
        We have been informed by the management that COMU                                                         Country Representative, the COMU Director, and the Chief of Party of the Tech-
                                                                      including COMU and COP. At one time,
        Director is the only authorized signatory to withdraw the                                                 Serve project. The bank account has two additional signatories in the home
                                                                      two authorised signatories should sign on   office to ensure access to the account if the three primary signatories are not
        cash and signs the cheque. All the payments are approved                                                  available.
                                                                      cheque.
        by authorized delegation of authority matrix and based on
        that COMU Director signs the cheque. We noted that there                                                  For any individual transaction, only one signatory is required. However, that
                                                                                                                  financial signatory authority is the implementation of final approvals that are
        are no dual signatories for cheque signing.                                                               regulated by a rigorous internal control system, including the approved technical
2   H                                                                                                             signatory for any individual project. MSH requires strict segregation of duties
                                                                                                                  among the roles of personal, programmatic, financial and fiduciary signatories.
                                                                                                                  It is not feasible to have multiple financial signatories on each individual
                                                                                                                  transaction. MSH Afghanistan maintains internal checks and balances that
                                                                                                                  ensure that all financial transactions are controlled according to USAID rules and
                                                                                                                  regulations. Each individual bank transaction is recorded by email
                                                                                                                  communications to both the Kabul and home offices. Daily cash payments are
                                                                                                                  reconciled against Finance team records. Finally, monthly expenditures are
                                                                                                                  reviewed in the home office by the individual projects to ensure appropriate
                                                                                                                  technical approvals were provided for each transaction.

        Lack of controls over petty cash management                           For better petty cash
                                                                              management we recommend             MSH Afghanistan does not maintain a petty cash system in Afghanistan. All cash
        While reviewing the petty cash management, we have been
                                                                                                                  payments, regardless of size, are process through a highly controlled cashiering
        informed by the management that MSH withdraws all the                 that:
                                                                                                                  system. While many payments are made in cash, these payments are made by
        cash from the bank and keeps in a safe at MSH office.                 Management should define a limit    the Finance team through the Cashier’s office, based on individual payment
        However we noted that there is neither defined petty cash             on petty cash and also on cash      requests and approvals. All standard and required approvals and documentation
        limit nor replenishment limit in place.                               replenishment.                      are maintained in accordance to MSH corporate standards, practices and policies
                                                                              A dual key control over cash        and as per USAID rules and regulations.

        Further, there are two safe in place and we noted that the            should be implemented by the
3   H                                                                                                             Large capital expenditures are paid by bank transfer or cheque, when possible
        access to both safe is only with the cashier, and there are           management in order to mitigate     with an individual vendor. The bank system in Afghanistan does not hold a high
        no dual controls over the same.                                       the risk of misappropriation of     level of confidence with some vendors or individual Afghans. MSH Afghanistan
                                                                              cash.                               maintains the cash payment system for those vendors who do not maintain bank
        Furthermore, we have been informed by the management                  At day end cash count               accounts, in order to ensure that open competition is maintained for best value
        that monthly cash reconciliations are prepared and cash                                                   to the USG. Exclusion of these vendors would limit procurement significantly,
                                                                              should be done by cashier in
                                                                                                                  and as a result have an unacceptable impact on competition and transparency
        count is done on ad hoc basis. However we did not find any            presence of a person who is         and possibly reduce best value to the USG.
        documentary evidence of the cash count.                               independent of the cash
                                                                              management. Both cashier and        MSH Afghanistan maintains dual controls over the safes at both the Cashier


                                                                                   34
                                                                                                                                                                         APPENDIX B


                                                                              the other personnel should sign   Office and main safe offices. There is a check and balance between the keys
                                                                              off on the cash count sheet at    assigned to the Cashier and the COMU Director, where neither party has the
                                                                              day end.                          ability to open the safe without the other party.

                                                                                                                Cash reconciliations are done on a monthly basis, with ad hoc spot checks mid-
                                                                                                                month, and documentation of these reconciliations are sent to the home office
                                                                                                                at the beginning of each month. Documentation, in both paper and electronic
                                                                                                                format, is on file in both the MSH Afghanistan and home offices.

                                                                                                                The MSH home office performs a second set of reconciliations against the
                                                                                                                Corporate books and testing cash balances against money drawn and money
                                                                                                                expended.

                                                                                                                Due to the known high risk, the financial system in Afghanistan has always been
                                                                                                                subject to frequent internal audit and business assurance visits from the home
                                                                                                                office, including random cash counting and reconciliation on at least an annual
                                                                                                                basis.


        No defined petty cash limit
                                                                       We recommend that for the payments,      As reported above, MSH Afghanistan does not maintain a petty cash system.
        While reviewing the petty cash management, we have been        management should define a limit on
        informed by the management that all the expenditures                                                    MSH Afghanistan recognizes the benefits of paying staff salaries through bank
                                                                       payments through cash. We also           transfer, and continues to work with the staff to accept such a change.
        including salaries, capital and operational expenditures are   recommend that salaries and capital      However, due to the confidence in the bank system above, this has not been
        paid in cash. However we noted that there is no defined        expenditure should be paid via bank      possible to date. MSH Afghanistan will continue to work with the staff to make
        limit of petty cash for the expenditures that should paid in   however operational expenditure up to    this shift, when appropriate.
        cash or should be paid via bank.                               the defined limit should only be paid
4   H
                                                                                                                MSH Corporate policy requires strict limits on cash expenditures. However, for
                                                                       though petty cash.                       the duration of our tenure in Afghanistan it has been clear that standards for and
                                                                                                                access to banking have been limited. Operating with a high level of cash has
                                                                                                                been the only way to rationally operate the large programs conducted over the
                                                                                                                past ten years. Since the high risks have been well known, the cash
                                                                                                                management and accounting system in Afghanistan has been highly scrutinized,
                                                                                                                audited and overseen at both the local and international level.




                                                                                   35
                                                                                                                                                                                       APPENDIX B


Scope Area                  4. External Audits
S. No.   Rating   Issue / Finding                                                Recommendation                               MSH Response
                   External audit for the project has not been carried out
                                                                                 We recommend that:
                                                                                                                              MSH conducts all audits required by project contracts/agreements, laws in the
                   An external audit is a review of the financial statements         ► management of prime awardee            US or host country, or by other applicable regulations.
                   or reports of an entity/projects by professional                      should get done projects
                                                                                         external audit on annual basis       The only requirement for external audits applicable to the Tech-Serve project is
                   accountants not affiliated with the entity. External audit
                                                                                     ► Management should ensure that          for an annual external audit of all MSH activities worldwide, to be performed by
                   plays a major role in the financial over sight of projects                                                 an independent auditor in accordance with OMB Circular A-133. This audit was
                                                                                         external audit of prime awardee
                   because they are conducted by outside individuals and                                                      performed in 2012 by MSH’s independent external auditors, Tonneson & Co; and
  1         L                                                                            is performed as per the applicable
                   therefore provide and biased opinion.                                 standards as defined in the USAID    we expect it to be completed by December 31, 2012. This document is made
                                                                                         regulations and as per the TOR       available online and a summary is posted to the Federal Clearinghouse, but we
                   As per the discussion with the management, we have been               for external audit.                  would also be happy to provide copies to any USAID office upon request.
                   informed that external audit of MSH is carried out at group       ► Further, once external audit is
                                                                                                                              There is no requirement for an additional external audit just of MSH’s operations
                   level. However, we have been informed that project audit of           performed, the report should be
                                                                                                                              in Afghanistan, or of just the Tech-Serve project.
                   TECH-SERVE has not been carried out.                                  forwarded to USAID for their
                                                                                         record purpose.


Scope Area             5. Procurement
S. No.   Rating   Issue / Finding                                                Recommendation                               MSH Response
                   Procurements are not advertised                               We recommend that the management
                                                                                                                              In accordance with MSH corporate standards, practices and policies, and with
                                                                                 should develop a threshold above
                  As per the discussion with the management, we have                                                          USAID regulations, all major procurements are competed on a free and fair basis
                                                                                 which RFP is issued to vendors. The
                  been informed that for the procurements Request for                                                         and are communicated widely to ensure open competition. Major procurement
                                                                                 same should be advertised at
                  Quotation (RFQ) are issued to the vendors. The same is                                                      RFPs are communicated to vendors through the internet (ACBAR or other
                                                                                 appropriate media.
                  evaluated by the evaluation committee. Further, we have                                                     websites, email, etc.), or through telephone contact with a list of reliable
                  been informed by the management, that there is no                                                           vendors.
  1         H
                  process for Request For Proposal above any threshold.
                                                                                                                              Due to the local operational and security environment, MSH Afghanistan does
                   As per FAR requirement for all procurements above USD
                                                                                                                              not advertise procurement RFPs through the local print or television media. With
                   25,000, RFP must be advertised. However we noted that
                                                                                                                              30 years of experience in country, MSH has found that such advertisements
                   there is no process in place for the advertisement of the
                                                                                                                              increase the profile of MSH and its USAID projects, and opens these projects up
                   RFPs.
                                                                                                                              to cases of fraud, corruption and potential security threats.


                   M&E personnel is member of bid evaluation committee           We recommend that M&E personnel              MSH Afghanistan rotates the membership of bid evaluation committees in order
                                                                                 should not take part in bid evaluation.      to ensure transparency in the selection of bidders, and to ensure best value to
  2         H      While reviewing the bid evaluation reports, we noted that                                                  the USG. On this basis, each of the individual technical teams from any of the
                                                                                 As they are also responsible for
                   Monitoring and Evaluation (M&E) personnel also form                                                        projects can expect to have team members called in to participate in the bid
                                                                                 monitoring the progress of the project.      evaluations.
                   part of the evaluation committee.


                                                                                              36
                                                               APPENDIX B

     The M&E personnel of Tech-Serve and the other projects do not have
     responsibilities or a mandate to monitor financial, procurement or other project
     support functions. Although they do monitor the performance of the project
     overall, this performance level is appropriately distant from the periodic
     participation in individual bid selections that there is not a conflict of interest
     between the two functions.




37
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs
                                        •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
